        IG’s
Semiannual Report
   to Congress




    September 2004
                                     Office of Inspector General
                                         Organization Chart

                                                                           Inspector
                Office of                                                   General
                                                                                                                                  Office of
             Compliance and
                                                                          Deputy                                                  Counsel
             Administration
                                                                     Inspector General

               Office of
                                                                                                                              Office of
           Inspections and
                                                                                                                         Systems Evaluation
         Program Evaluations



                                Office of                                                                           Office of
                                 Audits                                                                          Investigations


                         Financial Statements
  Business &                                                    Regional             Investigative                 Investigative               Investigative
                           & Accountability
Science Division                                                 Audits                Services                    Field Offices              Resident Offices
                               Audits




                                                   OIG Points of Contact
     Inspector General .................................       (202) 482-4661    Office of Counsel ................................... (202) 482-5992
     Legislative and                                                             Office of Inspections and Program Eval. (202) 482-2754
     Intergovernmental Affairs ......................          (202) 482-2187    Office of Investigations .......................... (202) 482-0934
     Office of Audits ......................................   (202) 482-1934    Office of Systems Evaluation ................ (202) 482-6186
     Office of Compliance and Admin. ..........                (202) 482-2637    Media Inquiries ...................................... (202) 482-5992


     REQUESTS FOR REPORTS                                                        OIG HOTLINE
     Telephone ............................................. (202) 482-5348      Telephone ............................................. (202) 482-2495
     Internet E-Mail ............................... reports@oig.doc.gov          .......................................................... or (800) 424-5197
                                                                                 TDD Number ......................................... (202) 482-5923
                                                                                 Internet E-Mail ............................... hotline@oig.doc.gov


                                                                  OIG Internet Home Page

                                                     http://www.oig.doc.gov
                                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                                      The Inspector General
                                                                      Washington, D.C. 20230




December 2004

The Honorable Donald L. Evans
Secretary of Commerce
Washington, DC 20230

Dear Mr. Secretary:

I am pleased to submit to you, in accordance with the Inspector General Act of 1978, this semiannual report on the work and
activities of the Department’s Office of Inspector General (OIG) for the 6-month period ending September 30, 2004.

Our work reflects the legislative mandate of the Inspector General Act to identify fraud, waste, and abuse and to recommend
appropriate corrective actions. Many of the issues we examine cannot be resolved quickly and require the Department’s
sustained attention. This semiannual report demonstrates our shared commitment to improving the Department’s programs
and protecting their integrity.

Our review of a number of departmental operations and activities found progress on Commerce’s part toward meeting many
of the key management challenges we have identified. For example, Census preparations for the 2010 decennial are pro-
ceeding well, and we believe the issues noted in our review of the 2004 site test can be resolved through prompt and proper
attention from management officials. As a result of its success in resolving deficiencies in financial management systems
and other issues we have identified over the years, Commerce has received an unqualified audit opinion on its financial
statements for the past 5 years. Similarly, while our required evaluations of IT systems security again identified this area as
a Commerce material weakness, we noted steady improvement. We hope to find this material weakness resolved in our next
year’s evaluation.

We have noted that although Commerce has made progress in addressing key management challenges such as improving
financial accountability, our audits of its financial assistance programs continue to find financial irresponsibility by some
recipients of Department funds. For example, as a result of extensive OIG audit and investigative work, a research firm in
Pennsylvania recently agreed to a $1.75 million settlement to resolve questioned costs and allegations of false claims
arising from its administration of a large NIST award. Such situations highlight the importance of the Department and its
bureaus providing the highest management oversight of their financial assistance programs.

Finally, I would like to acknowledge that your senior officials have worked cooperatively with us, both during the conduct
of our reviews and in addressing our findings. For example, the Census Bureau’s early attention to concerns we raised
during our review of the 2004 Census test demonstrates the value of our interaction. ITA and its Commercial Service
officials’ efforts and cooperation have been critical to the success of our trade-related work both domestically and overseas.
And one additional example of many cooperative efforts is the way in which EDA officials have worked with us to expedi-
tiously address problems identified during audits and investigations of EDA grantees.
The results of the cooperation between our office and the Department are evident in the operations that have improved over
the years and in the Department’s commitment to resolving issues we identify.

The Inspector General Act requires you to transmit this report within 30 days to the appropriate congressional committees
and subcommittees, together with a report containing any comments you wish to make. Your report must also include the
statistical tables specified in sections 5(b)(2) and (3) of the act, and a statement with respect to audit reports on which
management decisions have been made, but final action has not been taken as specified in section 5(b)(4).

I look forward to continuing to work with senior officials and Department managers to ensure that Commerce programs and
operations serve the nation’s taxpayers with efficiency, effectiveness, and integrity.



Sincerely,




Johnnie E. Frazier
Inspector General
Contents
IG’s Message to Congress ...................................................................................................................................................................... 1


Major Challenges for the Department .................................................................................................................................................. 3
      Strengthen Department-Wide Information Security ......................................................................................................................... 3
      Effectively Manage Departmental and Bureau Acquisition Processes ............................................................................................. 5
      Successfully Operate USPTO as a Performance-Based Organization .............................................................................................. 6
      Control the Cost and Improve the Accuracy of Census 2010 ........................................................................................................... 7
      Increase the Effectiveness of Marine Resource Management ........................................................................................................... 8
      Promote Fair Competition in International Trade ............................................................................................................................. 9
      Enhance Export Controls for Dual-Use Commodities .................................................................................................................... 10
      Enhance Emergency Preparedness, Safety, and Security of Commerce Facilities and Personnel .................................................. 11
      Continue to Strengthen Financial Management Controls and Systems .......................................................................................... 11
      Continue to Improve the Department’s Strategic Planning and Performance Measurement in Accordance with GPRA .............. 12


Department of Commerce Organization Chart ................................................................................................................................. 13


Agency Overviews
      Bureau of Industry and Security ...................................................................................................................................................... 14
      Economic Development Administration ......................................................................................................................................... 16
      Economics and Statistics Administration ........................................................................................................................................ 20
      International Trade Administration ................................................................................................................................................. 25
      National Oceanic and Atmospheric Administration ........................................................................................................................ 29
      National Telecommunications and Information Administration ..................................................................................................... 33
      Technology Administration ............................................................................................................................................................. 34
      United States Patent and Trademark Office .................................................................................................................................... 38
      Department-Wide Management ...................................................................................................................................................... 42


Office of Inspector General ................................................................................................................................................................. 48
      Tables and Statistics ........................................................................................................................................................................ 50
      Reporting Requirements .................................................................................................................................................................. 59


Acronyms ............................................................................................................................................................................................... 61
Types of OIG Work Products .............................................................................................................................................................. 63




September 2004/Semiannual Report to Congress
IG’s Message to Congress


A      s this semiannual period concluded, the United States
          Attorney’s Office for the Western District of Pennsylvania
          announced a $1.75 million civil settlement to resolve
questioned costs and allegations of false claims resulting from a
medical research firm’s misuse of a financial assistance award
                                                                        gressively monitoring the Census Bureau’s preparations. During
                                                                        this reporting period, we assessed its 2004 testing of automated
                                                                        nonresponse follow-up and related operations (see page 20). The
                                                                        bureau’s effort to conduct an accurate, cost-effective decennial
                                                                        remains a top challenge for the Department. We were encouraged
from the Department of Commerce. (See page 34.)                         by the outcome of the 2004 test and believe that management of-
                                                                        ficials will focus attention on the issues we identified. The bureau
I mention this case because it is a good and simple example of the      is making positive strides, and it is our view that prompt and sus-
IG Act at work—after 25 years, still very capably fulfilling its        tained attention can avoid shortcomings that occurred in the 2000
mission of detecting fraud, waste, and abuse in government pro-         Census.
grams and operations, as well as in the activities of organizations
outside of government to whom we entrust public funds. My coun-         Information security—another top challenge for Commerce—re-
terparts throughout the IG community can point to similar suc-          ceived considerable focus during this reporting period, as we com-
cesses involving hundreds of billions of taxpayer dollars. Both         pleted our annual reviews of the Department’s IT security status
Congress and the administration have rightly pushed for greater         in accordance with the Federal Information Security Management
accountability in the use of these financial assistance funds—which     Act (pages 23 and 42). Despite steady progress by the Depart-
total some $360 billion government-wide1 —and this focus re-            ment, these evaluations continue to find persistent areas of weak-
mained a key priority in our work of the last 6 months.                 ness in Commerce’s efforts to secure its numerous national- and
                                                                        mission-critical systems, and we are working closely with the
Commerce has reported the goal of improving administration of           Department’s chief information officer to resolve them.
federal grants programs in its past several Performance & Account-
ability Reports. Our office—by identifying the circumstances that       Our review of the U.S. Patent and Trademark Office’s (USPTO’s)
permit misuse of financial assistance funds—hopes to inform the         patent examiner production goals, performance appraisal plans,
Department’s efforts to achieve its goal and enhance its manage-        and awards (page 38) focused on how to better enhance patent
ment of financial assistance programs.                                  examiner productivity. The speed with which quality patents are
                                                                        issued can impact the pace of technological progress in the U.S.
Our 12 audits of financial assistance awards, detailed in this re-      The tools of the patent examiner trade have greatly improved over
port, disclosed numerous findings of questioned costs and other         the years, and we looked at areas that offer opportunities for im-
fiscal and operational weaknesses. We worked closely with pro-          provement in patent examiner production. The Department and
gram officials to address and resolve the problems that led to these    USPTO, in striving to meet the challenge of successfully operat-
shortcomings. In one case, an OIG audit has already prompted            ing USPTO as a performance-based organization, must see that
the Economic Development Administration (EDA) to terminate a            the agency effectively employs the means and mechanisms re-
$6.44 million public works award. Our recommendation to termi-          quired to operate at peak efficiency and meet the needs of its cus-
nate another EDA grant with questioned costs of $2.9 million is         tomers with utmost timeliness.
pending a determination by the agency.
                                                                        Another example of the diverse range of work featured in this
                                                                        semiannual report is our review of Commercial Service’s over-
                                                                        seas operations in India (page 26). These international posts play
NATIONAL AND
                                                                        a critical role in promoting U.S. trade, and we have made it a
INTERNATIONAL WORK                                                      practice to review them with regularity. As detailed later in this
                                                                        report, this huge post is doing a good job of promoting U.S. ex-
This semiannual report also details important reviews of a diverse      ports in India. However, some management weaknesses we noted
range of Commerce’s national and international activities. With         there echo those found at other overseas posts, as well as at some
time ticking away toward the 2010 decennial census, we are ag-          domestic U.S. export assistance centers. We welcome the oppor-
                                                                        tunity to work with Commercial Service, the International Trade
1
    http://www.grants.gov/SecretaryWelcome, accessed October 3, 2004.   Administration, and the Department to resolve the recurring prob-




September 2004/Semiannual Report to Congress                                                                                             1
IG’s Message to Congress




lems our inspections have identified, and thereby maximize the       istration. I look forward to continuing that partnership in the months
success of trade promotion activities.                               and years ahead and reaping the benefits it holds for the sound
                                                                     operation of this Department.

COLLABORATING FOR                                                    We have performed work that cuts across the broad spectrum of
SOUND GOVERNMENT                                                     Commerce activities and their attendant strengths and weaknesses
                                                                     to help inform your decision making with regard to this Depart-
Achieving the goals of the Inspector General Act is a collabora-     ment. Moreover, we will in the coming months be sharing our
tive enterprise that requires partnership and open dialog among      pending draft work plan with Congress to ensure that much of our
IGs, their department’s senior officials, Congress, and the admin-   agenda for this Department is compatible with yours.




2                                                                                U.S. Department of Commerce/Office of Inspector General
Major Challenges for the Department


T         he Office of Inspector General, in assessing its work at the
          close of each semiannual period, develops its list of Top
          10 Management Challenges the Department faces. Each
challenge meets one or more of the following criteria: (1) it is
important to the Department’s mission or the nation’s well-being,
                                                                             TOP 10 MANAGEMENT CHALLENGES
                                                                              1. Strengthen Department-wide information security.
                                                                              2. Effectively manage departmental and bureau
(2) it is complex, (3) it involves sizable resources or expenditures,            acquisition processes.
or (4) it requires significant management improvements. Because               3. Successfully operate USPTO as a performance-based
of the diverse nature of Commerce activities, these criteria some-               organization.
times cut across bureau and program lines. Experience has shown
                                                                              4. Control the cost and improve the accuracy of Census
that by aggressively addressing these challenges the Department
                                                                                 2010.
can enhance program efficiency and effectiveness; eliminate seri-
ous operational problems; decrease fraud, waste, and abuse; and               5. Increase the effectiveness of marine resource
achieve substantial savings.                                                     management.
                                                                              6. Promote fair competition in international trade.
                                                                              7. Enhance export controls for dual-use commodities.
                                                                              8. Enhance emergency preparedness, safety, and
Challenge 1                                                                      security of Commerce facilities and personnel.

STRENGTHEN DEPARTMENT-WIDE                                                    9. Continue to strengthen financial management controls
                                                                                 and systems.
INFORMATION SECURITY
                                                                             10. Continue to improve the Department’s strategic
Many of Commerce’s information technology systems and the                        planning and performance measurement in
data they contain have national significance. Loss of or serious                 accordance with GPRA.
damage to any of these critical systems could have devastating
impacts. Therefore, identifying weaknesses in them and recom-
mending solutions is a continuing top priority for the Office of
                                                                         Through accreditation, agency officials formally accept responsi-
Inspector General. The Federal Information Security Management
                                                                         bility for the security of the systems over which they have man-
Act of 2002 (FISMA) provides a comprehensive framework for
                                                                         agement, operational, and budget authority and for any adverse
ensuring that information resources supporting federal operations
                                                                         impacts to the Department if a breach of security occurs.
and assets employ effective security controls. FISMA requires
OIGs to perform independent security evaluations of their agen-
                                                                         The Department’s CIO has continued to push completion of sys-
cies annually.
                                                                         tem certifications and accreditations; updated Commerce’s infor-
                                                                         mation security policy on such topics as managing the IT system
During this fiscal year the Department has continued to focus on         inventory, assessing security controls, and preparing plans of ac-
improving information security. On June 29, 2004, the Secretary          tion and milestones for remediating security weaknesses; and de-
issued a memorandum highlighting the need for giving high pri-           veloped a policy on peer-to-peer file sharing.2 But similar to last
ority to information security: he directed secretarial officers and      year’s FISMA review, our FY 2004 evaluation found that the De-
heads of operating units to allocate sufficient resources for this       partment still faces considerable challenges in adequately safe-
purpose, support their unit’s chief information officer (CIO) in         guarding the hundreds of Commerce systems, particularly with
managing information security, and ensure that senior program            regard to effectively conducting these critical activities: (1) as-
officials who authorize systems to operate have received suffi-
cient training in the certification and accreditation (C&A) pro-
cess. When implemented properly, certification is a powerful tool        2
                                                                          Peer-to-peer file sharing allows individual users of the Internet to con-
for helping ensure that appropriate security controls are in place,      nect directly through the Internet to each other so as to transfer or ex-
functioning as intended, and producing the desired outcome.              change computer files.




September 2004/Semiannual Report to Congress                                                                                                    3
Major Challenges for the Department




                                                                        pleased to note some progress. In particular, based on our review
         EXAMPLES OF CRITICAL DATA                                      of C&A documentation, we found the C&A processes of the Bu-
              PROCESSED BY                                              reau of Economic Analysis and Office of the Secretary provide
           COMMERCE IT SYSTEMS                                          reasonable assurance that their national- and mission-critical sys-
    • The Bureau of Industry and Security’s export license              tems are adequately protected.
      data helps control the release of dual-use commodities
      to countries and entities of concern.
                                                                        MATERIAL WEAKNESS
    • The National Oceanic and Atmospheric Administration’s             AT USPTO RESOLVED
      satellite, radar, and weather forecasting data and
      systems provide information used to protect lives and
                                                                        Like the Department, USPTO reported information security as a
      property.
                                                                        material weakness in prior-year Performance & Accountability Re-
    • The Economics and Statistics Administration’s economic            ports, which it submits separately. However, USPTO has reported
      indicators have policymaking implications that can affect
                                                                        all of its critical systems as certified and accredited, and we are
      the movement of global commodity and financial
                                                                        pleased to report that our review of a sample of C&A materials
      markets.
                                                                        confirmed the adequacy of its C&A process and documentation.
    • The U.S. Patent and Trademark Office’s patent and
                                                                        We therefore consider USPTO’s material weakness resolved.
      trademark information is essential to administering
      patent and trademark law, promoting industrial and
      technical progress, and strengthening the national                DEPARTMENT-WIDE CONTRACT
      economy.                                                          SECURITY DEFICIENCIES REMAIN

                                                                        We noted in our FY 2003 FISMA report that inadequate security
                                                                        provisions in Commerce IT service contracts also place systems
sessing risk and determining appropriate security controls, (2) test-
                                                                        at risk. The Department continued to rely heavily on contractors
ing and evaluating these controls, (3) certifying and accrediting
                                                                        to provide IT services, spending 65 percent of its IT contract dol-
systems, and (4) ensuring that personnel with specialized infor-
                                                                        lars in this area in FY 2003. Last year’s FISMA evaluation found
mation security responsibilities receive the necessary training. (See
                                                                        that while progress had been made in incorporating security pro-
page 42.)

The Census Bureau is a case in point. Our review of the bureau’s
information security program (page 23) found significant deficien-
cies in its C&A documentation and processes, such as risk assess-
                                                                                       Framework for an
ments that did not sufficiently identify system vulnerabilities, and             Information Security Program
security plans that assigned improper and inconsistent sensitivity
levels to systems and did not adequately describe the controls that                                                     Categorization
                                                                           Risk                                         of Information
were in place or needed. The documentation also did not identify           Assessment                                   & Information
residual risks in the certified and accredited systems, and thus pro-                                                   Systems
vided no evidence that the accrediting official understood the level
of risk being assumed in authorizing system operations.

For the past 3 fiscal years, the Department reported information           Security               Agency                Security
security as a Federal Management Financial Integrity Act (FMFIA)           Planning               Information &         Authorization
material weakness in its Performance & Accountability Report in                                   Information           (Accreditation)
                                                                                                  Systems
part because our reviews of the C&A documentation for numer-
ous national- and mission-critical systems reported as certified
and accredited have continued to identify significant deficiencies.

This year we again reviewed the C&A documentation for a sample
                                                                                    Security                 Security
of the Department’s national-critical and mission-critical systems
                                                                                    Control &                Control
reported as certified and accredited. Although we observed some                     Implementation           Assessment
improvements, our review found serious shortcomings in the risk                                              (Certification)
assessments, security plans, contingency plans, and testing to en-
sure that security controls are implemented and working as in-
tended. Thus, we recommended that information security should           Source: http://csrc.nist.gov/organizations/fissea/conference/2004/
remain a material weakness for FY 2004. Nevertheless, we were           presentations.html, accessed October 5, 2003.




4                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                         Major Challenges for the Department




visions into recent IT service contracts, provisions for controlling     while ensuring that taxpayer dollars are wisely spent and laws
contractor access to Department systems and networks were gen-           and regulations followed.
erally absent, and there was little evidence of contract oversight
or of coordination among contracting, technical, and information         This balance is best maintained by adhering to basic acquisition
security personnel in developing appropriate contract security. This     principles: careful planning, promotion of competition, prudent
year we provided additional analysis of the contract security is-        review of competitive bids, adept contract negotiations, well-struc-
sues as well as recommendations to further ensure that informa-          tured contracts, and effective contract management and oversight.
tion and information systems are adequately secure when con-             These are essential to ensuring that sound contracting decisions
tractor-provided services are used. Specifically, we recommended         are made and contracts successfully executed. Problems we have
that Commerce take steps to ensure that its service contracts con-       identified with service contracting in the past include failure to use
tain the new security clauses, issued in November 2003, and that         performance-based task orders where they would be beneficial,
appropriate contract oversight occurs. (See page 43.)                    inadequate training in the use of performance-based service con-
                                                                         tracting, insufficient planning for contract administration and
COMPUTER INCIDENT RESPONSE                                               monitoring, and failure to ensure that adequate security provisions
WEAKNESSES NOTED                                                         are included and enforced in IT service contracts.

As part of our FISMA work, we evaluated Commerce’s computer              The Department has recently taken a number of steps to improve
incident response capability and found that its decentralized struc-     management of Commerce acquisition processes. In March 2004,
ture is appropriate for the Department’s diverse and multiunit organi-   it mandated the use of standardized clauses for IT security for all
zation. (See page 43.) However, we identified numerous weaknesses:       applicable solicitations and contracts, and as part of the
                                                                         Department’s annual IT security compliance review, its Office of
    • No centralized entity to promote information sharing and
                                                                         Acquisition Management (OAM) worked with the CIO’s office to
      consistency in response processes.
                                                                         determine whether such clauses are being included in IT service
    • Inadequate incident response procedures.                           contracts. Additionally, OAM has established a board to review
    • Incomplete and inconsistent incident reporting by the              the Department’s major acquisitions, competitive sourcing oppor-
      operating units.                                                   tunities, and interagency agreements; and it reports having achieved
                                                                         the goal of using performance-based acquisitions to award not
    • The need for better intrusion detection approaches and
                                                                         less than one-half of the total dollar amount the Department ex-
      specialized tools and training.
                                                                         pends on service contracts.
The Department CIO concurred with our findings and is taking
action to improve Department-wide incident detection and re-             OIG ACQUISITION REVIEWS CONTINUE
sponse.
                                                                         The serious consequences of poor contract management were evi-
                                                                         dent in our review last year of a NOAA/NWS contract modifica-
                                                                         tion for a transition power source for the NEXRAD weather ra-
Challenge 2                                                              dar, which resulted in NWS paying for defective equipment, con-
                                                                         tract costs increasing by an estimated $4.5 million, and the pur-
EFFECTIVELY MANAGE                                                       chase of a product that may not have been the best choice for
DEPARTMENTAL AND BUREAU                                                  NEXRAD. (See September 2003 Semiannual Report, page 25.)
ACQUISITION PROCESSES                                                    OIG continues to monitor the corrective action plan being imple-
                                                                         mented as a result of this review and is working with NOAA’s
Federal acquisition legislation in the 1990s mandated sweeping           director of acquisitions and grants to improve the consistency and
changes in the way federal agencies buy goods and services. The          thoroughness of NOAA’s acquisition process. NWS has also taken
intent was to reduce the time and money spent on purchasing and          actions in response to OIG’s recommendations, including issuing
improve the efficiency of the process. The latest legislative effort     a policy directive on acquisition management, and indicates that a
to streamline acquisition is the Services Acquisition Reform Act         critical element on procurement has been added to the performance
of 2003, whose provisions further push for performance-based             plans of staff involved in the acquisition process.
service contracting: the act provides that service contracts under
$25,000 may be treated as “commercial” if certain performance-           Currently, we are reviewing NIST’s contract administration pro-
based criteria are met and thereby be eligible for simplified acqui-     cess. Our objectives are to determine whether NIST has (1) effec-
sition procedures. As the Department’s reliance on contractor-pro-       tive policies and procedures for processing and managing pro-
vided services increases, so does the challenge to effectively man-      curement actions in accordance with pertinent laws and regula-
age the streamlined acquisition processes these initiatives fostered,    tions, (2) an acquisition workforce that is adequately trained and




September 2004/Semiannual Report to Congress                                                                                                5
Major Challenges for the Department




                                                                      Challenge 3
                                                                      SUCCESSFULLY OPERATE THE U.S.
                                                                      PATENT AND TRADEMARK OFFICE
                                                                      AS A PERFORMANCE-BASED
                                                                      ORGANIZATION

                                                                      The United States Patent and Trademark Office’s operation as a
                                                                      performance-based organization continues to warrant special at-
                                                                      tention. USPTO maintains that the efficiency with which it issues
                                                                      patents has a huge impact on the pace of technological advance-
                                                                      ment worldwide. The prompt registration of trademarks protects
                                                                      commercial investment, informs consumer choices, and promotes
                                                                      the availability of new goods and services.
Artist’s rendering of planned NOAA Fisheries research facility in
Juneau. Source: http://www.fakr.noaa.gov/lena/renderings.htm,         USPTO has assumed responsibility for certain operational func-
accessed October 15, 2004.                                            tions that were once controlled or monitored at the departmental
                                                                      level, and it is essential that the bureau effectively use its expanded
                                                                      authority over budget allocations and expenditures, personnel de-
skilled to handle NIST’s procurement actions, and (3) a system        cisions and processes, procurement, and information technology
for effectively and efficiently processing procurements in accor-     operations to support the issuance of patents and trademarks.
dance with Commerce/NIST policies and procedures.
                                                                      Since 2002, USPTO
MAJOR CONSTRUCTION AND                                                has been working to            KEY USPTO PATENT
RENOVATION PROJECTS                                                   implement its 21st                     STATISTICS
                                                                      Century Strategic                            2003
Contracts for large, costly, and complex capital improvement and      Plan. The 5-year plan       Patent Examiners             3,579
construction projects carry numerous inherent risks. This is an       was intended to help        Applications Filed        333,452
area of particular vulnerability for the Department, given the many   the agency overcome         Applications Granted      173,072
construction and/or renovation projects it has planned or under       the challenges ac-          Backlog                   457,254
way for Commerce facilities. For this reason, we continue to moni-    companying its tran-        First Actions              283,111
tor the progress of some of the Department’s key current and          sition to perfor-           Final Disposals           284,470
planned construction projects.                                        mance-based opera-          Average Pendency         26.7mos.
                                                                      tions, successfully Source: USPTO
We have just concluded a review of USPTO’s progress in com-           develop necessary
pleting, furnishing, and occupying its new headquarters complex       personnel policies, establish procurement and administrative poli-
in northern Virginia (see Challenge 3 and page 39). We also plan      cies as well as performance-oriented processes and standards for
to keep abreast of other major Commerce renovation and construc-      evaluating cost-effectiveness, and meet its performance goals un-
tion projects, such as Census’s construction of its new Suitland,     der the Government Performance and Results Act (GPRA).
Maryland, headquarters; the Department’s planned renovation of
its headquarters (the Herbert C. Hoover Building in Washington,       According to the agency, the plan provides a roadmap for major
D.C.); and NOAA’s construction of a Pacific Region Center in          changes in patent and trademark processes. These include steps to
Hawaii and a fisheries research facility in Juneau, Alaska.           (1) improve and maintain patent and trademark quality, (2) move
                                                                      to a paperless environment and promote e-government, (3) en-
                                                                      hance employee development, and (4) explore competitive sourc-
                                                                      ing. The plan also calls for the agency to work with international
                                                                      intellectual property offices to create a global framework for en-
                                                                      forcing intellectual property rights.

                                                                      Our office recently performed three reviews at USPTO. First, we
                                                                      reviewed patent examiner production goals, performance appraisal
                                                                      plans, and awards to determine their effect on the output of the
                                                                      patent examiner corps. We found that patent examiner goals have




6                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                          Major Challenges for the Department




                                                                          Challenge 4
                                                                          CONTROL THE COST AND
                                                                          IMPROVE THE ACCURACY OF
                                                                          CENSUS 2010

                                                                          Few Commerce activities have more ambitious goals, higher costs,
                                                                          or more intensive resource requirements than the constitutionally
                                                                          mandated decennial census, and with each decade, this undertak-
Artist’s rendering of USPTO’s five-building complex in Alexandria,        ing becomes more costly, complex, and challenging. Costs of
Virginia, clockwise from lower left: Remsen, Jefferson, Madison,          $2.2 billion in 1980 rose to $3.3 billion in 1990 and to $6.6 billion
Knox, and Randolph. Source: USPTO                                         in 2000. They have been estimated to be $9.3 billion in 2010 (in
                                                                          constant 2000 dollars).
not changed since 1976 to reflect efficiencies in work processes;
patent examiners’ performance appraisal plans are not linked to           Achieving an accurate population count has become more difficult
their supervisors’ goals or those of USPTO; and patent examiner           and costly over the past 3 decades because the nation’s population
awards do not appear to be having their intended impact of stimu-         has increased and diversified dramatically. And much has changed
lating examiner production. (See page 38.)                                in the methods and technologies used for decennial census taking
                                                                          during that time. But the primary weaknesses we noted in moni-
Second, we reviewed progress on construction of the agency’s              toring the 1980, 1990, and 2000 decennials have remained the same
new, state-of-the-art headquarters complex in Alexandria, Virginia,       and are at least partially responsible for the ballooning costs: in-
and its relocation to these facilities. This project is one of the fed-   sufficient planning and lack of upfront funding for an undertaking
eral government’s largest real estate ventures. When completed in         that by its very nature requires long-term vision and development,
2005, the 5-building complex will bring together the majority of          as well as appropriate testing at key points along the way.
USPTO employees and contractors, who are currently scattered
among 18 buildings in Crystal City, Virginia. USPTO has already           The Census Bureau has taken numerous steps toward improving
occupied 3 of the new buildings and expects to take occupancy of          2010 operations and controlling costs. In September 2002 it
the remaining 2 earlier than anticipated. We found, among other           adopted a reengineered framework for conducting the decennial:
things, that USPTO and GSA have provided adequate manage-                 an American Community Survey to collect and tabulate long-form
ment and financial oversight of the project; USPTO successfully           data throughout the decade; an enhanced address list and geo-
planned and executed its recent move of 2,093 employees to the 2          graphic information database; and a program of early planning,
buildings completed at the time of our review; and cost increases         development, and testing for a short-form-only census. The three-
that have occurred are due primarily to project delays beyond             pronged strategy is ambitious and intended to capitalize on the
USPTO’s control, as well as to new requirements, such as infor-           latest technology, such as handheld computers equipped with glo-
mation technology changes and security upgrades. (See page 39.)           bal positioning system capabilities for field operations, including
                                                                          address canvassing and nonresponse follow-up data collection.
Third, in response to complaints and a request from the agency’s
chief financial officer/chief administrative officer, we reviewed                                                  In this semiannual period,
certain aspects of the Office of Human Resources (OHR). We found                                                   we assessed the 2004 cen-
among other things that the recruitment process for the human                                                      sus test (see page 20), in
resources director position was flawed and that USPTO, in col-                                                     which the bureau tested,
laboration with the Department, needed to clarify its relationship                                                 among other things, the
with the Office of Personnel Management and establish sufficient                                                   feasibility of using
human resources policies and procedures. (See page 40.)                                                            handheld computers to
                                                                                                                   automate nonresponse fol-
                                                                                                                   low-up (NRFU). The test
                                                                                                                   was conducted in a por-
                                                                                                                   tion of New York City and
                                                                                                                   in three rural counties in
                                                                                                                   south central Georgia. We
                                                                                                                   found that the handheld
                                                                                                                   computers and related au-
                                                                          The palm-sized handheld computer         tomation are promising
                                                                          used for the 2004 NRFU operation.




September 2004/Semiannual Report to Congress                                                                                                7
Major Challenges for the Department




    PLANNED DECENNIAL CENSUS TESTS                                       Challenge 5
       Site Tests                2004 Census Test                        INCREASE THE EFFECTIVENESS
                                 2006 Census Test                        OF MARINE RESOURCE
       National Tests            2003 National Census Test               MANAGEMENT
                                 2005 National Census Test
                                                                         The National Marine Fisheries Service (NOAA Fisheries) must
       Overseas Tests            2004 Overseas Census Test               balance two competing interests: (1) promoting commercial and
                                 2006 Overseas Census Test               recreational fishing as vital elements of our national economy and
                                                                         (2) preserving populations of fish and other marine life. The
       Dress Rehearsal           2008
                                                                         Magnuson-Stevens Act of 1976, the Marine Mammal Protection
    Source: U.S. Census Bureau                                           Act of 1972, and the Endangered Species Act of 1973 gave NOAA
                                                                         Fisheries responsibility for rebuilding and maintaining sustain-
                                                                         able fisheries and promoting the recovery of protected marine spe-
replacements for paper-based processes, and the enumerator               cies. The Magnuson-Stevens Act also made NOAA Fisheries the
workforce was able to use the handhelds.                                 primary federal agency for managing marine fisheries and estab-
                                                                         lished a regional fishery management system to help the agency
However, the test exposed issues that will have to be addressed          carry out its mission. The 1996 amendments to the act strength-
for future tests and the 2010 census, including problems with data       ened NOAA Fisheries’ role in protecting and sustaining fisheries
transmissions, technical support to the field, and the bureau’s sys-     and their habitats.
tem and software engineering practices. Among other areas we
noted in need of improvement were enumerator training, plan-             PACIFIC COASTAL SALMON
ning for tests of revised group quarters definitions, and several        RECOVERY FUND
management and administrative activities.
                                                                         Established by Congress in 2000 at the request of the states of
We will continue our focus on the bureau’s planning for the 2010         Washington, Oregon, California, and Alaska, the Pacific Coastal
decennial, including its preparation for the 2006 site test, as well     Salmon Recovery Fund provides grants to these states and their
as review other issues and related matters that could have an im-        resident Native American tribes to support local salmon conser-
pact on the decennial.                                                   vation efforts. The fund is the third largest source of federal sup-
                                                                         port for salmon recovery efforts and the largest financial assis-
                                                                         tance program in this area administered by NOAA.


                              PACIFIC COASTAL SALMON RECOVERY FUNDING
                                 ADMINISTERED BY NOAA (IN MILLIONS)

                                 FY 2000            FY 2001            FY 2002          FY 2003           FY 2004             Totals

  Washington                       $18.0              $30.2              $34.0             $27.8             $26.0           $136.0

  Alaska                           $14.0              $19.5              $27.0             $21.9             $20.6           $103.0

  California                        $9.0              $15.1              $17.0             $13.9             $13.0             $68.0

  Oregon                            $9.0              $15.1              $17.0             $13.9             $13.0             $68.0

  Idaho                             $.00               $.00               $.00              $.00               $4.9             $4.9

  Pacific Coastal Tribes            $6.0               $7.4              $11.0              $8.9               $8.4            $41.7

  Columbia River Tribes             $2.0               $2.5               $4.0              $3.0               $3.1            $14.6

  Total                            $58.0              $89.8             $110.0             $89.4             $89.0           $436.2

  Source: FY 2000-2004 figures at http://webapps.nwfsc.noaa.gov/servlet/page?_pageid=1292&_dad=portal30&_schema=
  PORTAL30, accessed October 15, 2004; totals provided by OIG.




8                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                      Major Challenges for the Department




Given the millions of dollars at stake and the importance of the      access efforts adequately serve U.S. exporters, and its enforce-
NOAA program, we turned our attention this semiannual period          ment of U.S. trade laws helps eliminate unfair competition from
to salmon recovery fund awards, concluding the first three in a       imports priced at less than fair market value or subsidized by for-
series of planned audits.                                             eign governments.

Our initial reviews focused on programs operated by an Oregon         To help meet the challenges in highly competitive world markets,
state agency and a Washington state Indian commission. In each        Commerce and its International Trade Administration (ITA) work
case, we questioned significant portions of costs claimed by the      with the Office of the U.S. Trade Representative, the Departments
recipients and recommended recovery of federal funds. We are          of State and Agriculture, and numerous other federal agencies to
keeping NOAA advised of the results of our ongoing audits so          monitor and enforce trade agreements. The number and complex-
that the agency is able to address common issues through strength-    ity of those agreements have increased substantially in recent years,
ened grants management.                                               and the Secretary of Commerce has made monitoring and enforc-
                                                                      ing trade agreements and laws a top priority for ITA and the De-
U.S. COMMISSION ON                                                    partment as a whole. Over the years, Commerce has received ad-
OCEAN POLICY                                                          ditional funding for trade compliance activities, such as placing
                                                                      compliance officers overseas in several key markets. Increased
In September 2004, the U.S. Commission                                funding has enabled ITA to attract needed staff without having to
on Ocean Policy presented its final report—                           request special hiring authority or offer recruitment incentives (see
An Ocean Blueprint for the 21st Century—                              March 2003 Semiannual Report, page 20).
detailing its findings regarding the state of
our nation’s ocean and coastal resources                              Commerce’s many overseas posts and domestic U.S. export as-
and offering recommendations for building                             sistance centers (USEACs) help U.S. companies identify specific
a coordinated and comprehensive national                              export marketing opportunities and trade leads and offer other trade
ocean policy. The last comprehensive review of U.S. ocean policy      promotion and export finance counseling services, especially to
was conducted 35 years ago. Since then, our oceans and coasts         small and medium-size firms that are new to exporting or seeking
have changed drastically—more than 37 million people, 19 mil-         to expand their overseas markets. During this past year, we re-
lion homes, and countless businesses have been added to coastal       viewed three USEAC networks—Chicago, Pacific Northwest, and
areas.                                                                Philadelphia—that comprise 28 individual centers operated by
                                                                      ITA’s Commercial Service. We evaluated their management op-
In its report, the commission called for, among other things, a       erations and ability to provide value-added export counseling to
review of all federal agencies with ocean-related responsibilities,   U.S. companies (see March 2004 Semiannual Report, page 24).
with an eye toward eliminating redundant programs, and recom-         During this semiannual period, we released a crosscutting report
mended greatly expanding NOAA’s environmental stewardship             on strengths and weaknesses common to the networks (see page
activities. The areas identified in the commission’s report, espe-    25). In each network, we found that client satisfaction was high,
cially those concerning NOAA’s broader environmental steward-         strong relationships existed with local partners, and financial and
ship responsibilities, will draw our attention in the future.         administrative operations were generally sound. However, we also
                                                                      noted inconsistencies in reporting and oversight that led to over-
                                                                      stated export success dollar values—a key barometer of perfor-
                                                                      mance. Since we first identified problems with export success re-
                                                                      porting, ITA and Commercial Service have taken a number of
Challenge 6                                                           steps to improve related quality controls and oversight of the pro-
                                                                      cess, and they are working to train managers and staff in correct
PROMOTE FAIR COMPETITION IN                                           reporting procedures. However, further improvements are needed
INTERNATIONAL TRADE                                                   in the reporting guidelines and management accountability.

To compete effectively in today’s global marketplace, many U.S.       Our USEAC findings mirrored those of our recent reviews of over-
companies need help accessing new or expanded export market           seas operations. Inspections of Commercial Service posts in Greece
opportunities as well as addressing unfair trade practices, trade     and Turkey revealed that, again, most customers were satisfied
disputes with foreign firms, noncompliance with or violations of      with the products and services they received, but both posts had
trade agreements, inadequate intellectual property protection, and    overstated the value of their export successes. (For more detail on
other impediments to fair trade. Commerce must ensure that its        Greece, see September 2003 Semiannual Report, page 22. For
export promotion assistance and trade compliance and market           Turkey, see the March 2003 issue, page 19.)




September 2004/Semiannual Report to Congress                                                                                            9
Major Challenges for the Department




                                                                      requires the IGs to discuss in their annual interagency report the
   Commerce has numerous mechanisms to monitor and                    status or disposition of recommendations made in earlier reports
   help enforce U.S. trade agreements and review trade
                                                                      submitted in accordance with the act.
   complaints. When warranted, its Trade Compliance Center
   forms teams to follow up on complaints and bring them to
   satisfactory conclusion. ITA’s overseas offices, operated          Our FY 2004 NDAA work dealt with the effectiveness of dual-
   by the Commercial Service, and its other operating units           use deemed export regulations and policies,3 including their imple-
   perform a substantial amount of market access and trade            mentation by BIS, and compliance with the regulations by U.S.
   compliance work. Overall, ITA’s approach to trade                  industry, Commerce agencies, and academic institutions. (See
   compliance and market access is to engage the issue at             March 2004 Semiannual Report, page 14.) We found that certain
   the working level wherever possible, thus avoiding formal          aspects of BIS’ deemed export outreach program are working well,
   dispute settlement structures such as the World Trade              but we also identified problems that hamper the efforts of both
   Organization, which can take years to resolve trade                BIS and the U.S. government to more effectively prevent the trans-
   disagreements. The Department and ITA pursue important             fer of sensitive technology to foreign nationals from countries or
   matters of policy—such as intellectual property rights
                                                                      entities of concern while they are in the United States. In addi-
   protection, standards development, trading rights, and
   distribution services—in government-to-government
                                                                      tion, our most recent follow-up report on prior OIG recommenda-
   negotiations.                                                      tions noted closure of all outstanding issues from 2000, but nu-
                                                                      merous recommendations from subsequent years are still open.
                                                                      (See March 2004 Semiannual Report, page 17.) BIS has since
                                                                      submitted an action plan to address our deemed export recom-
We also report in this issue the findings of our inspection of Com-   mendations and notes that it is developing a deemed export com-
mercial Service’s post in India (see page 26). We found that the      pliance program and deciding whether to modify its regulations
post is generally doing a good job of providing export assistance     and public guidance. It also reports having increased its deemed
to U.S. companies and collaborates well with its trade partners,      export educational outreach to companies, universities, and re-
other components of the U.S. mission and ITA, and other govern-       search institutions.
ment agencies. But as at the USEACs and other overseas posts we
have inspected, the India post’s reported export successes were       For the 2004 interagency report, the IG review team (Commerce,
problematic. In many cases we could not verify the link between       Defense, Energy, State, and the CIA) and the Department of Home-
Commercial Service assistance and the reported export success,        land Security’s OIG4 completed a crosscutting review of the ad-
and we identified several that did not meet the criteria of an ex-    equacy and effectiveness of government-wide efforts to promote
port success. Although, as noted earlier, Commercial Service and      compliance with deemed export control laws and regulations and
ITA have taken steps to improve management oversight of report-       to determine whether they protect against the transfer of controlled
ing, we are concerned that Commercial Service’s new, written FY       U.S. technologies and technical information. (See page 14.)
2004 reporting guidelines have reduced management accountabil-
ity for ensuring the accuracy and integrity of export success re-     REVIEW OF THE EXPORT LICENSING
ports. We will continue to monitor these areas and report on the      PROCESS FOR CHEMICAL AND
Department’s efforts to resolve issues we identify.                   BIOLOGICAL COMMODITIES

                                                                      To comply with NDAA’s FY 2005 requirement, we are reviewing
Challenge 7                                                           the export licensing process for chemical and biological commodi-
                                                                      ties to determine whether current licensing and enforcement prac-
                                                                      tices are consistent with relevant laws and regulations, as well as
ENHANCE EXPORT CONTROLS
                                                                      established national security and foreign policy objectives, such
FOR DUAL-USE COMMODITIES

The National Defense Authorization Act (NDAA) for Fiscal Year         3
                                                                        According to the Export Administration Regulations, any release to a
2000, as amended, directed the inspectors general of the Depart-
                                                                      foreign national of technology or software subject to the regulations is
ments of Commerce, Defense, Energy, and State, in consultation        deemed to be an export to the home country of the foreign national. These
with the directors of the Central Intelligence Agency and the Fed-    exports are commonly referred to as “deemed exports” and may involve
eral Bureau of Investigation, to report to Congress by March 30,      the transfer of sensitive technology to foreign visitors or workers at U.S.
2000, and annually until the year 2007, on the adequacy of export     research laboratories and private companies.
controls and counterintelligence measures to prevent the acquisi-
tion of sensitive U.S. technology and technical information by        4
                                                                       Homeland Security participated in the 2004 assessment because of the
countries and entities of concern. In addition, NDAA for FY 2001      nature of the review topic.




10                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                             Major Challenges for the Department




as those set forth in the President’s National Strategy to Combat            locations, complying with recent security-related guidance is a
Weapons of Mass Destruction (December 2002). In addition, we                 complex, resource-intensive undertaking for Commerce. Our in-
are assessing the effectiveness of coordination between the vari-            spections of overseas posts and domestic U.S. export assistance
ous federal agencies during the export licensing process for these           centers operated by the Commercial Service identified the need
commodities.                                                                 for more timely security upgrades, improved oversight of security
                                                                             operations, and in some cases, specific security improvements.
While BIS, the administration, and Congress work to target fed-
eral licensing and enforcement efforts on exports that present the           We believe Commerce is making progress on many emergency
greatest proliferation and national security risks, and streamline           preparedness, safety, and security fronts, but the challenge is mas-
or eliminate controls that hamper trade and are not necessary to             sive. OIG is currently conducting a follow-up review of the
address national security or foreign policy concerns, congressional          Department’s emergency preparedness efforts to ascertain the sta-
enactment of a new Export Administration Act is vital to the suc-            tus of these activities and to identify other areas that may still
cess of the U.S. government’s efforts to enhance export controls.            need to be addressed.
We will continue to monitor BIS’ efforts to improve the effective-
ness of dual-use export controls.

                                                                             Challenge 9
Challenge 8
                                                                             CONTINUE TO STRENGTHEN
ENHANCE EMERGENCY                                                            FINANCIAL MANAGEMENT
PREPAREDNESS, SAFETY, AND                                                    CONTROLS AND SYSTEMS
SECURITY OF COMMERCE
FACILITIES AND PERSONNEL                                                     Federal law requires agencies to prepare and disseminate finan-
                                                                             cial information, including audit reports on their financial state-
Since our March 2002 report on the status of emergency prepared-             ments, to enable Congress, agency executives, and the public to
ness and security programs at a cross-section of Commerce fa-                assess an agency’s operational and program management and to
cilities, the Department has made significant improvements, but              determine whether its financial management systems comply with
the challenge remains. Heightened security requires a variety of             legislative mandates.
measures: infrastructure risk assessments, emergency backup sites,
upgraded physical security, and employee awareness and train-                The Department has now implemented the Commerce Adminis-
ing, to name a few. Despite progress in these areas, the Depart-             trative Management System, achieved and maintained unquali-
ment needs to regularly reassess its security status to ensure it            fied opinions on its consolidated financial statements, and come
provides adequate protections for employees and operations, and              into substantial compliance with the Federal Financial Manage-
must make modifications as needed.                                           ment Improvement Act—all significant accomplishments. These
                                                                             successes reflect management’s commitment to and success at
Commerce has reported a number of actions to enhance security                addressing the findings of deficient internal controls and financial
thus far this year. These include drafting a new Department Ad-              management systems identified in our audits and other reviews
ministrative Order relating to foreign national visitors and guest           over the past decade.
researchers in Commerce facilities, which is currently being re-
viewed by Commerce bureaus. The Department also reported that                Nevertheless, maintaining sound financial management controls
it has conducted numerous risk assessments of Commerce facili-               and systems remains a challenge, given the Department’s size,
ties and compliance reviews of security containers5 and classified           the diversity of its mission-related activities, its complex mix of
documents to help ensure the safety of Commerce personnel and                financial systems and operations, and the billions of dollars it must
national security information. Commerce’s Office of Security is              account for each year. We will continue to monitor a range of
also working with bureaus to develop or update their continuity              financial management issues, including Commerce’s progress in
of operations and emergency operations plans.                                meeting the accelerated financial reporting dates required by OMB
                                                                             for the FY 2004 financial statements audit—now due just 45 days
Given the size of its workforce and the geographical spread of its           after year-end; the effectiveness of the Department’s internal con-
hundreds of facilities nationwide and at more than 150 overseas              trols; the International Trade Administration’s progress toward
                                                                             implementing full cost recovery to comply with OMB Circular
5
 Security containers are secure receptacles (e.g., safes) or holding areas   A-25; and the Department’s maintenance and operation of finan-
for classified documents and materials.                                      cial systems, including change management for updating software.




September 2004/Semiannual Report to Congress                                                                                                11
Major Challenges for the Department




Challenge 10                                                           (3) improved explanations and disclosures to clarify and enhance
                                                                       the usefulness of the results.
CONTINUE TO IMPROVE THE
DEPARTMENT’S STRATEGIC                                                 During this past semiannual period, these same issues emerged in
PLANNING AND PERFORMANCE                                               our audit of NOAA performance measures supporting the agency’s
                                                                       goals of building sustainable fisheries, recovering protected spe-
MEASUREMENT IN ACCORDANCE                                              cies, and predicting and assessing decadal to centennial climate
WITH THE GOVERNMENT                                                    change. We found that reporting for all three of the goals was
PERFORMANCE AND RESULTS ACT                                            problematic: in some cases, titles of measures did not clearly con-
                                                                       vey what was being assessed; in others, explanations and verifica-
Congress and agency managers require relevant performance mea-         tion details were incomplete, or supporting documentation
sures and credible performance data to effectively oversee federal     was inadequate. To correct these deficiencies, NOAA needs to
programs. The Government Performance and Results Act of 1993           (1) revise or otherwise clarify certain performance measures,
was designed to ensure the availability of such data by mandating      (2) strengthen internal controls to ensure that reported data is fully
that agencies set goals for program performance and report out-        supported and adequately explained, and (3) provide complete and
comes measured against them. Accurate performance results are          appropriate detail in discussions of results. (See page 29.)
essential to agencies’ ability to develop integrated budget and per-
formance information and to make sound funding decisions.              The operating units for which we have completed performance
                                                                       measure audits have been responsive to our recommendations:
Over the past several years, we have reviewed the collection and       they have developed action plans to address identified deficien-
reporting of performance data by eight of Commerce’s largest           cies and have revised previously reported performance informa-
operating units. Our audits have identified the need for (1) stron-    tion accordingly. As each unit takes such steps, we are confident
ger internal controls to ensure that reported data is accurate,        that performance data will become more reliable and useful, and
(2) measures that clearly articulate what is being assessed, and       thus better serve the purpose and intent of GPRA.




12                                                                                 U.S. Department of Commerce/Office of Inspector General
                  Department of Commerce Organization Chart




September 2004/Semiannual Report to Congress                  13
                    BUREAU OF INDUSTRY
                    AND SECURITY

                                    INTERAGENCY REPORT ECHOES DEEMED

  T
          he                              EXPORT CONTROL FINDINGS
                                                             AT BIS
         Bureau of
         Industry and Security                   To meet the fifth-year requirement of the Na-
  is primarily responsible for                      tional Defense Authorization Act, the inspec-
  administering and enforcing the nation’s             tors general of the Departments of Com-
  system for controlling exports of sensitive            merce, Defense, Energy, Homeland Se-
  dual-use goods and technologies. BIS’ major               curity, and State and the CIA assessed
  functions include formulating and implementing              whether U.S. industry, federal agen-
  export control policy; processing export license             cies, and academic institutions are
  applications; conducting various policy, technical,            complying with deemed export
  and economic analyses; promulgating regulations;                laws and regulations to prevent
  conducting industry outreach; and enforcing the                   the transfer of sensitive U.S.
  Export Administration Act and regulations.                         technologies to foreign nation-
  BIS is divided into two units:                                      als from countries and entities
                                                                      of concern, and whether the
  Export Administration implements U.S. export control                regulations are thus having the
  and nonproliferation laws and policies through export               desired effect. At Commerce,
  licensing, commodity classifications, and advisory                   our assessment of BIS’ imple-
  opinions; technical, economic, foreign availability, and             mentation of deemed export regulations and policies, detailed in
  policy analyses; promulgation of regulations; and                    our March 2004 Semiannual Report to Congress (page 15), noted
  industry outreach. It also conducts various defense                 that some licensing policies and exemptions may inadvertently af-
  industry activities and enforces industry compliance               fect national security, and require further examination. The inter-
  with arms control treaties.                                        agency report, issued during this semiannual period, identified these
                                                                    same concerns at the various other departments involved in adminis-
  Export Enforcement participates in reviews of                    tering the regulations.
  export license applications and conducts criminal
  and administrative investigations relating to the
  export control portions of the Export
                                                              REVIEW RESULTS
  Administration Act and regulations. It also
  administers and enforces the antiboycott
                                                        U.S. ORGANIZATIONS LACK AWARENESS AND
  provisions of the act and regulations.
                                                       UNDERSTANDING OF DEEMED EXPORT REGULATIONS

                                                   The agency IGs noted that companies and academic institutions often are unaware of or
                                               unclear about their obligations under federal law for safeguarding sensitive technology from
                                         foreign nationals who work with or visit them. The OIGs also found an acute lack of awareness that
                                    export control regulations apply to the technology associated with the use of controlled equipment,
                               even when it is used by foreign nationals to conduct fundamental research. Federal agencies with export
                      control responsibilities must expand their outreach and educational activities to improve awareness of and compliance
with the regulations, and thereby reduce opportunities for the unauthorized transfer of export-controlled technology or commodities.

AGENCIES DO NOT SUFFICIENTLY MONITOR COMPLIANCE

Four of the six agencies reviewed did not conduct on-site compliance inspections or audits, or have other acceptable policies or proce-
dures in place for promoting and verifying compliance with deemed export controls.




14                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                              Bureau of Industry and Security




MANY FOREIGN NATIONALS ARE                                               and opportunity to convey the information to countries or entities
EXEMPT FROM REGULATIONS                                                  of concern. The Commerce and Defense OIGs were also concerned
                                                                         that the definition of fundamental research may be unclear.
As noted in past reviews, both the Export Administration Regula-
tions and the International Traffic and Arms Regulations exempt          FOLLOW-UP ON
a large number of foreign nationals from deemed export licensing
requirements and thus raise the potential for the inappropriate trans-
                                                                         RECOMMENDATIONS
fer of sensitive U.S. technology: licenses are not required for for-
                                                                         The interagency team made no joint recommendations in this year’s
eign nationals who are permanent U.S. residents or who wish to
                                                                         report, but as required by NDAA, we followed up on prior-year
access publicly available technology and software that is already
                                                                         interagency recommendations: our FY 2002 report, Interagency
published or will be published, or is educational. In addition, the
                                                                         Review of Federal Automated Export Licensing System, had a to-
fundamental research exemption, while it does not provide a blan-
                                                                         tal of seven recommendations. Four of these were addressed to
ket exemption for technology transfers to foreign nationals in-
                                                                         the Secretaries of Commerce, Defense, Energy, State, and Trea-
volved in fundamental research, does apply to technology that
                                                                         sury, and to date, two remain open: one calling on the Secretaries
arises during, or results from, fundamental research. With regard
                                                                         to create a charter outlining the responsibilities of each agency in
to the first issue, the IGs noted that permanent residents may pose
                                                                         developing and operating a dual-use licensing system and in co-
a risk because they can freely travel to and from their home coun-
                                                                         ordinating their individual efforts to improve their automated li-
try and potentially transport controlled technology without scru-
                                                                         censing systems; the other, to create a central repository for all
tiny. As for the second issue, publicly available, sensitive technol-
                                                                         unclassified data records pertaining to export license review and
ogy and research that is not published may ultimately be deemed
                                                                         approval. (Offices of Inspector General of the Departments of
too sensitive for unrestricted availability and withdrawn from the
                                                                         Commerce, Defense, Energy, Homeland Security, and State, and
public domain. In the meantime, foreign students or researchers
                                                                         the Central Intelligence Agency: IPE-16177)
at U.S. academic and research facilities would have the access




September 2004/Semiannual Report to Congress                                                                                           15
                                  ECONOMIC DEVELOPMENT
                                  ADMINISTRATION

                                        PUBLIC WORKS PROGRAM

  T
           The
           Economic                              EDA’s Public Works Program empowers distressed communities in economic decline to
           Development                              revitalize, expand, and upgrade their physical infrastructure to attract new industry,
  Administration was established                       encourage business expansion, diversify local economies, and generate or retain
  by the Public Works and Economic                       long-term, private sector jobs and investment. In many cases, public works
  Development Act of 1965 to generate                       projects are used to upgrade or expand an area’s economic infrastructure to
  new jobs, help retain existing jobs, and                     support the next generation of industry or commerce. Whenever possible,
  stimulate commercial and industrial growth in                  this program seeks to redevelop existing facilities and industrial/commer-
  economically distressed areas of the United                     cial locations. EDA encourages such projects because they promote sus-
  States. EDA continues to fulfill this mission                     tainable economic development by taking advantage of readily avail-
  under the authority of the Economic Development                     able infrastructure and markets. During this reporting period, we con-
  Administration Reform Act of 1998, which                             ducted audits of three public works grant awards, recommending that
  introduced the concept of Comprehensive Economic                       two of the three be terminated.
  Development Strategies, a local planning process
  designed to guide the economic growth of an area.                        Audit Results in Termination of
  Based on these locally and regionally developed
  strategies, EDA works in partnership with state and                      California Incubator Project
  local governments, regional economic development
  districts, public and private nonprofit organizations,                   A northern California nonprofit organization received a $6.44 mil-
  and Indian tribes to help distressed communities                         lion public works grant in September 2002 to construct a 40,000-
  address problems associated with long-term economic                     square-foot   business incubator for start-up biotech firms. The
  deterioration and recent, severe economic                               project proposed   to launch as many as 40 companies within 5 years,
  dislocations, including recovery from the economic                     attract nearly a  billion  dollars in venture capital, and create 3,000
  impact of natural disasters, the closure of military                  new   jobs. The  recipient   was required to provide a matching share
  installations and other federal facilities, changes in               of  $1.61  million,  bringing   the total estimated cost of the project to
  trade patterns, and the depletion of natural                        $8.05   million. Under    the  special terms and conditions of the 4-year
  resources. EDA provides eligible recipients                        award,   construction   had  to start by September 30, 2004.
  with technical assistance, as well as grants for
  public works and economic development,                         In May 2004, EDA’s mounting concerns regarding the grantee’s financial
  planning, training and research, and                         stability  prompted us to conduct an interim, limited-scope audit of the award
  economic adjustment.                                      to assess   the  organization’s ability to complete the project, and to determine
                                                         whether disbursed grant funds had been spent for nonproject purposes.

                                                   Based on information developed during the audit, we concluded that the organization
                                              was on the brink of insolvency and sustaining its day-to-day operations only through the
                                         improper use of EDA project funds. The recipient’s most recent financial statements reflected
                                     a net deficit position. In addition, our analysis of monthly cash flow demonstrated that operating
                                expenditures were routinely exceeding revenues, and that EDA construction funds were being used to
                           cover the ongoing cash shortfalls. As of April 30, 2004, EDA had disbursed nearly $2.5 million to the
            grantee, most of which was earmarked for purchase of the land on which the incubator would be built. We calculated that
the organization should have had more than $2 million in project funds on hand at the time of our audit, but only $1.7 million remained
because some $300,000 had been used to cover nonproject expenses. We also found that the grantee’s financial management system did
not meet federal requirements: accounting records did not separately account for EDA project costs, and controls over project funds
were inadequate.




16                                                                                    U.S. Department of Commerce/Office of Inspector General
                                                                                                       Economic Development Administration




We considered these financial and administrative deficiencies to
be so serious that we recommended that EDA designate the re-
cipient as a high-risk organization, immediately suspend the award,
and require the grantee to deposit all remaining project funds into
a separate, interest-bearing account. We further recommended that
EDA terminate the award if, within 60 days, the recipient failed to
reimburse all funds spent for nonproject purposes and demon-
strate its financial and administrative capability to complete the
project. The agency accepted our recommendations and suspended
the award in July 2004.

In response to our report, the grantee admitted that it had improp-
erly spent more than $300,000 in EDA funds in order to keep its
organization afloat, and acknowledged its inability to repay the
misspent funds within 60 days. Nonetheless, the organization as-        Aerial view of industrial park project.
serted that its fiscal woes would soon be remedied, claiming to         Source: OIG
have put in place an operating plan to achieve financial stability,
which relied on the infusion of significant revenue from various
public and private funding sources. In our view, however, the           project while the award was suspended, the developer proceeded
recipient’s plan was speculative at best: it provided no credible       with construction and completed the project in October 2000. In
assurances that the projected funding was actually forthcoming          late 2001, the city requested that the grant be reinstated, noting
or that it would be available to cover the routine operating ex-        that the lawsuit had been settled and the project concluded. In
penses of the organization. Moreover, the response failed to dem-       2003 the city submitted a claim for total project costs of $2.9 mil-
onstrate that the organization was a responsible recipient of fed-      lion, at which point EDA learned that administration of the project
eral funds or that it had the financial and administrative capability   had been transferred to the developer—an ineligible recipient of
to complete the incubator project in accordance with the terms          public works funds. Despite concerns about this transfer and
and conditions of the EDA award.                                        completion of the project without EDA approval, the agency dis-
                                                                        bursed $900,000 in grant funds with the caveat that all claims
In September 2004, EDA notified the recipient that the award            would be subject to an OIG audit.
would be terminated for cause, and directed repayment of more
than $2 million in grant funds disbursed for the construction           AUDIT DISCLOSES SERIOUS
project. (Atlanta Regional Office of Audits: ATL-16838)                 NONCOMPLIANCE ISSUES
                                                                            • Project transferred to ineligible recipient. Under the
Audit of Grant to Ohio City                                                   terms of EDA’s public works program, for-profit con-
                                                                              cerns may not receive grant funds. The city—in awarding
Discloses Material Violations and                                             a subgrant to the developer—transferred project manage-
$2.9 Million in Questioned Costs                                              ment to a for-profit entity, and thereby effectively passed
                                                                              EDA funds through to an ineligible recipient. Addition-
In September 1998, a city in Ohio received a public works grant               ally, as owner of the property under development, the
for infrastructure improvements to a parcel of land being devel-              company was the primary beneficiary of the publicly
oped as an industrial park. The three-phase project, initiated in             funded project.
1996, was being developed by the property owner on the city’s
behalf. At the time of the EDA award, the developer—a for-profit            • Conflicts of interest. As project manager, the developer
company—had completed phase I using a $1.4 million municipal                  executed contracts with prohibited parties—one, for
grant. The EDA grant was to augment city funding for phases II                excavation work by a company it controlled; the other for
and III. Total estimated cost of the remaining two phases was                 landscaping services from a firm owned by the
$2.3 million, with the federal share not to exceed $900,000.                  developer’s son-in-law, who was also employed by the
                                                                              development company as project manager of the indus-
In May 1999, EDA suspended the grant pending the outcome of a                 trial park.
lawsuit by the Environmental Protection Agency: EPA had charged             • Improper procurement procedures. The city, through
that the city’s wastewater treatment facilities did not meet federal          the developer, failed to ensure full and open competition
environmental requirements and could not handle additional in-                in procuring materials and services for the project. It
dustrial users. Though EDA advised the city to defer work on the              awarded contracts without seeking competitive bids or




September 2004/Semiannual Report to Congress                                                                                          17
Economic Development Administration




       conducting formal price comparisons. It also failed to           MATCHING SHARE IS AVAILABLE
       obtain required EDA approvals or maintain adequate
       procurement records.                                             Subsequent to the completion of our audit fieldwork in April 2004,
    • Noncompliant financial management system. The city                the state obtained a certification that a company owned by the
      did not track and record EDA-funded project costs                 developer had committed to constructing a commercial facility in
      separately from those paid for with city funds, and               the underground complex that would create 60 jobs. As a result,
      therefore could not adequately document costs claimed             state matching funds were made available to the village. Based on
      as allocable to the EDA grant.                                    the earlier problems experienced, we recommended that EDA
                                                                        monitor the project to ensure that matching funds are paid out at
    • Inadequate audits. Annual audits of the city’s financial          the same general rate as federal funds, and that the promised job
      statements were not conducted in accordance with the              creation actually occurs.
      Single Audit Act.
                                                                        PROBLEMS WITH DEVELOPMENT
We questioned all costs claimed by the city because one or more
                                                                        AGREEMENT REMEDIED
violations of the terms and conditions of the grant award were
found with respect to each of the transactions comprising the claim.
                                                                        The village’s original agreement with the developer afforded the
                                                                        developer the right of first refusal to purchase the mine property.
Given the seriousness of the violations we identified, we recom-
                                                                        In our draft report we noted that exercise of this provision would
mended that EDA terminate the grant for cause, disallow the en-
                                                                        have the effect of passing through the public works grant to an
tire $2.9 million of claimed costs, and recover the federal share of
                                                                        ineligible recipient—a for-profit company—that would also be-
$900,000. EDA’s response to this recommendation is pending.
                                                                        come the primary beneficiary of the EDA-funded project. In re-
(Denver Regional Office of Audits: DEN-16511)
                                                                        sponse, the city terminated the developer’s right of first refusal. In
                                                                        our final report, we recommended that EDA make clear to the city
Matching Share, Development                                             that, should it sell the mine after improvements are made, it must
                                                                        reimburse EDA for its share of the proceeds, based on the agency’s
Agreement, and Project Safety                                           participation in the cost of the project.
at Issue in Illinois Audit
                                                                        STEPS TAKEN TO ENSURE
In September 2001, EDA awarded a public works grant to a vil-
                                                                        PROJECT SAFETY
lage in southwest Illinois for infrastructure improvements to an
abandoned limestone mine slated for development as an under-
                                                                        During our review, we examined a report from a geological engi-
ground business complex that would provide space for cold stor-
                                                                        neering firm that had surveyed the mine’s stability and concluded
age and other warehousing operations. The project includes in-
                                                                        that loose rock in the roof posed an unacceptable risk to public
stallation of water, sewer, and electric lines; roof and portal rein-
                                                                        safety. It proposed a three-step process for shoring up the roof and
forcement; and construction of a concrete access roadway. Total
                                                                        thus minimizing the risk. In its response to our draft report, the
estimated costs of the project are $3,156,755, of which the EDA
                                                                        village confirmed its intention to adhere to the three-step plan.
grant will fund a maximum of $1,894,053. The $1,262,702 bal-
                                                                        We recommended that EDA condition release of grant funds on
ance is to be covered by matching funds from the state of Illinois,
                                                                        the village’s compliance with the engineering firm’s recommen-
which are contingent upon a certification that the project will cre-
                                                                        dations.
ate 60 jobs.

The village contracted with a private developer to oversee the          FUNDS PUT TO BETTER USE
improvements and market the space to commercial prospects. In
January 2004, EDA suspended the award because the project had           By ensuring that agreements between the project developer and
no committed tenants and the state’s matching share had been            the city adhere to grant requirements, mine safety conditions are
withheld.                                                               met, and matching funds are contributed, project funds amount-
                                                                        ing to $3,156,755 will be put to better use. (Denver Regional Of-
We performed an audit to assess whether the funds necessary to          fice of Audits: DEN-16837)
complete the project would be available. We also reviewed the
village’s agreement with the developer to determine whether it
complied with grant requirements, and examined the safety and
physical viability of the project. At the time of our audit, no con-
struction contracts had been awarded and no EDA funds disbursed.




18                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                    Economic Development Administration




INVESTIGATIONS                                                         RLF Directors Indicted for Public
                                                                       Corruption and Program Fraud
RLF Administrators Convicted of                                        In September 2004, a federal grand jury in the Western District of
Conspiracy and Program Fraud                                           Missouri charged the former executive director and former assis-
                                                                       tant director/community planner of a regional rural economic de-
In our March 2004 Semiannual Report (page 43), we reported             velopment commission with a 19-count indictment that included
that two of four officials of an EDA-funded revolving loan fund        charges of conspiracy, federal program fraud, and making false
(RLF) pleaded guilty in U.S. District Court for the District of Mas-   statements. A separate nonprofit corporation, for which one of the
sachusetts to program fraud, money laundering, and conspiracy.         defendants also served as executive vice president, was created
In June 2004, one of the defendants was sentenced to 41 months’        by the development commission to receive federal grant funds,
incarceration and 3 years’ probation, and was ordered to pay a         and received funding from a number of agencies, including EDA,
fine of $300 and restitution to the government in the amount of        the Small Business Administration, and the Departments of Hous-
$723,553. The other defendant who entered a guilty plea is sched-      ing and Urban Development, Labor, and Agriculture. The EDA
uled for sentencing in October 2004.                                   funds were disbursed through a grant to capitalize an economic
                                                                       development revolving loan fund administered by the corpora-
The two remaining defendants were found guilty in April 2004 of        tion. A joint OIG/FBI investigation disclosed that the defendants
multiple fraud and conspiracy charges. In July 2004, one defen-        used federal funds to make unauthorized loans and payments to-
dant was sentenced to 6 months’ home detention, 3 years’ proba-        taling more than $900,000 to benefit themselves and the compa-
tion, and 300 hours of community service, and ordered to pay           nies they operated and controlled. We also determined that annual
restitution of $29,000 and a fine of $5,000. In August 2004, the       certifications provided by the defendants to EDA regarding the
other defendant was sentenced to 6 months’ home detention, 4           disposition of RLF funds contained false statements concealing
years’ probation, and 300 hours of community service, and or-          the fraudulent activity and false certifications that EDA policies
dered to pay restitution of $68,000 and a fine of $5,000. (Arling-     had been followed. (Denver Resident Office of Investigations)
ton Resident Office of Investigations)




September 2004/Semiannual Report to Congress                                                                                       19
                        ECONOMICS AND STATISTICS
                        ADMINISTRATION

                              CENSUS 2004 TEST: REENGINEERED
                                NONRESPONSE FOLLOW-UP IS PROMISING,

  T
           he
           Economics
                                  BUT PROBLEMS REMAIN
           and Statistics
                                                    The Census Bureau put its reengineered decennial strategy to the first major test this
  Administration analyzes
                                                       past spring, conducting automated nonresponse follow-up (NRFU) using handheld
  economic developments,
                                                         computers (HHCs). The testing occurred at two fully operational local census
  formulates policy options, and
                                                           offices (LCOs) established to evaluate the functionality of new NRFU systems
  produces a major share of U.S.
                                                             and procedures under rural and urban conditions. The urban LCO served a
  government economic and demographic
                                                              portion of the New York City Borough of Queens; the rural office served
  statistics. The Chief Economist monitors
                                                               three counties in south central Georgia.
  and analyzes economic developments and
  directs studies that have a bearing on the
                                                                 Nonresponse follow-up is the most labor-intensive and costly operation in
  formulation of economic policy. ESA has two
                                                                 the decennial: temporary Census employees (enumerators) visit addresses
  principal agencies:
                                                                  from which the bureau did not receive a completed questionnaire. For the
                                                                  test, enumerators visited more than 120,000 households.
  Bureau of the Census is the country’s preemi-
  nent statistical collection and dissemination agency.
                                                                   Automating NRFU’s paper-based processes is a key feature of the bureau’s
  It publishes a wide variety of statistical data about
                                                                  redesign for Census 2010, and if successful, should enhance operational
  the nation’s people and economy, conducting ap-
                                                                  efficiency, data quality, and enumerator productivity, while containing costs.
  proximately 200 annual surveys, in addition to the
                                                                  The transformation is built around an HHC designed to allow enumerators
  decennial census of the U.S. population and the
                                                                 to manage their housing assignments, locate housing units using electronic
  decennial census of industry.
                                                                 maps and global positioning system (GPS) technology, interview household
                                                                occupants via an automated questionnaire with English and Spanish text, and
  Bureau of Economic Analysis prepares, de-
                                                              exchange data with Census headquarters. A major objective of the 2004 test
  velops, and interprets the national income
                                                             was to determine whether HHCs could effectively support nonresponse follow-
  and product accounts (summarized by the
                                                            up activities and whether enumerators could ably use them to perform their work.
  gross domestic product), as well as ag-
  gregate measures of international, re-
                                                        A multidisciplinary team from OIG’s Offices of Audits, Inspections and Program
  gional, and state economic activ-
                                                     Evaluations, and Systems Evaluation assessed selected aspects of the 2004 test:
  ity.
                                                   (1) the HHCs and associated systems involved in automating NRFU; (2) enumerator
                                                hiring, training, and quality control processes; (3) revised definitions and methods for
                                            distinguishing between group quarters and housing units; and (4) management, administra-
                                       tive, and logistical support. Our key findings are detailed below.


                      AUTOMATED NONRESPONSE FOLLOW-UP APPEARS FEASIBLE, BUT
                   TECHNICAL ISSUES NEED TO BE RESOLVED

The test demonstrated that HHCs and related automation are promising replacements for paper-based NRFU. The enumerator workforce—
recruited, hired, and trained using the bureau’s traditional practices—was able to use the handheld computers. HHC assignment and
questionnaire functions generally appeared to work well, as did the Operations Control System (OCS) used for assigning cases to
enumerators’ HHCs, processing their questionnaire data, and providing other critical management functions.




20                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                         Economics and Statistics Administration




However, the test exposed numerous weaknesses: transmission            finding sites that have the necessary features may be more difficult
problems and inadequate help desk support seriously disrupted          than in the past. The bureau, through its site selection process, must
enumerator training and NRFU operations, as did the delivery           verify that facilities can accommodate technology requirements or
of inadequately tested HHC software and the consequent need            that they can otherwise adequately support the training.
to transmit improved software during training. In the field, the
handheld computers often crashed, disrupting the interview and         INSUFFICIENT PLANNING HAMPERED
sometimes losing data. Finally, the HHCs’ electronic maps were         TEST OF REVISED GROUP QUARTERS
generated so slowly that enumerators often opted not to use them,      DEFINITIONS
leaving the bureau with little data for assessing this and related
navigation aids.                                                       The 2004 test did not further the bureau’s goals of distinguishing
                                                                       hard-to-identify group homes from housing units and of improv-
NRFU TRAINING NEEDS IMPROVEMENT                                        ing enumeration of students living off campus. First, the revised
                                                                       definitions for group quarters were ambiguous and late in com-
Curriculum Modifications. The bureau has traditionally trained         ing—they became available only after training materials for de-
enumerators using a rigidly scripted “verbatim” methodology.           termining a structure’s type had been prepared. The materials there-
Some problems we observed with NRFU operations—such as                 fore did not provide adequate instruction on differentiating and
enumerators omitting or rewording questions, or ineptly handling       properly categorizing certain types of group homes.
reluctant respondents—appeared to be systemic, long term, and
linked to weaknesses in training. Introduction of the handheld         Second, the newly added off-campus, university-leased housing
computer has made training even more difficult, particularly be-       category was not adequately tested because neither site contained
cause many trainees have various levels of expertise, and some-        such housing. As the bureau has already selected the 2006 sites, it
times no experience with computers and related terminology. The        should determine whether these locations contain the defined hous-
bureau’s verbatim curriculum needs to be augmented with other          ing situations, and if they do not, consider expanding site bound-
methods to better address the systemic and technical learning is-      aries to include such housing or find an alternative for testing this
sues we observed. To improve training, the bureau should con-          new category.
sider preparing alternative scripts or explanations for asking awk-
ward questions, and adopting more dynamic training methods such        NEW QUALITY ASSURANCE OPERATION
as multimedia and computer-based instruction.                          SUPPORTS DATA INTEGRITY

Site Selection. The addition of the handheld computer component        To ensure the accuracy of data collected during NRFU, each local
to the training curriculum has changed the bureau’s training space     census office conducts “reinterviews,” during which quality as-
needs—classes are now longer and sites must have adequate infra-       surance enumerators contact a sample of previously enumerated
structure, such as telephone lines capable of handling HHC trans-      households. This operation is designed to detect and deter data
missions. Given that the bureau tries to use free or low-cost space,   falsification. In Census 2000, the reinterview process was handled



                                                                              1. Each day the enumerator selects assignments from his or her HHC
                                                                                 assignment list, goes into the field, and uses the HHC to locate
                                                                                 addresses and conduct interviews.
                                                                              2. Each evening the enumerator initiates a transmission to exchange
                                                                                 data with Census headquarters. The enumerator connects the HHC to
                                                                                 the home telephone jack and sets up the HHC to connect to the
                                                                                 Census telecommunication (Telecom) system.
                                                                              3. During the transmission, the enumerator’s HHC uploads collected
                                                                                 questionnaire data to the telecommunication system at headquarters
                                                                                 and headquarters downloads new assignments to the HHC.
                                                                              4. During the transmission, the OCS Database Server at headquarters
                                                                                 receives questionnaires from the telecommunication system and
                                                                                 sends new assignments to the telecommunication system. The OCS
                                                                                 Database Server automatically accepts completed questionnaires or
                                                                                 flags partially completed ones for supervisory review.
                                                                              5. Throughout the day, supervisors and crew leaders review reports
                                                                                 generated by the OCS (Database Server and desktop Client) about the
                                                                                 status of assignments. Then they allocate new or partially completed
                                                                                 assignments to enumerators. These assignments are entered into the
                                                                                 OCS Client and stored in the OCS Database Server.
 Source: OIG




September 2004/Semiannual Report to Congress                                                                                                     21
Economics and Statistics Administration




                                                                   We found that ambiguities in quality assurance training manuals
              BEYOND THE 2004 TEST:                                could compromise the AMQA’s independence. For example,
               PREPARING FOR THE                                   though the manuals give this assistant manager authority for in-
             2010 DECENNIAL CENSUS                                 vestigating possible falsification or poor-quality enumeration, the
  To meet performance and cost goals for the 2010 decennial,       procedures for doing so often require the AMQA to seek answers
  the Census Bureau should develop and implement plans that        regarding irregularities from field operations management rather
  accomplish the following:                                        than from crew leaders and enumerators—a process that makes it
  2006 Test
                                                                   possible for field managers to minimize problems.
    • Balance the dual objectives of managing a test and
       conducting a census, including complete documentation       SOME MANAGEMENT AND
       of test problems and operations.                            ADMINISTRATIVE ISSUES NEED
    • Confirm that test sites support test objectives (e.g.,       ATTENTION
       select representative group quarters housing to test
       university-leased, off-campus definition) or find an
                                                                   While we found that the Queens LCO systematically tested and
       alternative for testing the objective.
    • Explore and test alternative methodologies to train
                                                                   documented what did and did not work, the Georgia staff did not
       enumerators.                                                do so and had less of an understanding of the purpose of the test.

  Automated Operations
    • Reevaluate and improve data transmissions.                   AGENCY RESPONSE
    • Reevaluate and improve field operations technical
      support.                                                     The bureau had no substantial disagreements with our observa-
    • Define complete and verifiable specifications that           tions, and noted that it would consider our suggestions in looking
      address functional, performance, and human factor            for ways to improve the 2006 census test, the 2008 dress rehearsal,
      requirements for further system development and              and the 2010 decennial. (Offices of Audits, Inspections and Pro-
      acquisition.
                                                                   gram Evaluations, and Systems Evaluation: OIG-16949)
    • Improve system and software engineering practices to
      ensure the deployment of thoroughly tested automated
      capabilities before training and operations begin.
    • Plan contingencies for essential NRFU components
      whose failure would jeopardize field operations.             REVIEW OF FEDERAL AUDIT
    • Improve performance of and further test map functions.       CLEARINGHOUSE DATABASE
    • Upgrade selection criteria for crew leaders to reflect
      higher level skill requirements.                             FINDS FEW PROBLEMS
    • Ensure HHC training can be effective in facilities lacking
      functional and accessible electrical outlets and             During this period, the Office of Inspector General assessed the
      telephone lines.                                             accuracy of the Federal Audit Clearinghouse Database—the re-
    • Establish better inventory controls for reclaiming HHCs      pository and distribution mechanism for single audit reports.7
      from departing employees.                                    Roughly 30,000 new reports are added to the database each year,
  Other Considerations                                             according to OMB, and since our last review of the clearinghouse
    • Gain consensus for new definitions (e.g., group              in 2000, the process for entering and accessing database informa-
      quarters) prior to applying them in an operation.            tion has moved from a manual to Internet-based system.
    • Reinforce Census hiring policies to LCO staff.
    • Continue to emphasize partnership efforts to recruit         Our FY 2004 review analyzed a representative sample of 200 au-
      staff and publicize the census (i.e., increase               dit reports and related database entries. We assessed the complete-
      participation).                                              ness of audit reporting packages submitted to the clearinghouse
    • Verify that the quality assurance operation supports         and compared and verified database information against that con-
      data integrity.
                                                                   tained in the reports and other documents in the packages. We
  Source: OIG                                                      tested the utility of the database’s Internet search function and the

                                                                   6
                                                                    Department of Commerce Office of Inspector General. Re-enumeration
                                                                   at Three Local Census Offices in Florida: Hialeah, Broward, and Home-
by the assistant manager for field operations. However, problems   stead, ESD-13215-0-0001, September 2000.
with data falsification 6 prompted the bureau to separate the
reinterview process and its management from NRFU field opera-      7
                                                                    “Single audits” are audits of federal financial assistance recipients per-
tions. The process is now under an assistant manager for quality   formed by state and local government auditors or independent public
assurance (AMQA), who reports directly to the LCO manager.         accountants, in accordance with OMB Circular A-133.




22                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                    Economics and Statistics Administration




                                                                       The Census Bureau generally agreed with the results of our re-
   OMB CIRCULAR A-133, Audits of States, Local Govern-                 view and the recommendations in our IT report. (Atlanta Regional
   ments, and Non-Profit Organizations, designates the
   Bureau of the Census as the federal agency responsible              Office of Audits: ATL-16202-1 and -2)
   for maintaining the clearinghouse. The clearinghouse
   processes incoming reporting packages and related data
   collection forms, maintains a governmentwide database of
   audits, distributes reports with audit findings to individual
   federal agencies for audit resolution, and maintains an             WEAKNESSES IN
   archival copy of all reports.                                       CERTIFICATION AND
                                                                       ACCREDITATION PROCESS
                                                                       LEAVE SECURITY OF CRITICAL
accuracy and accessibility of web site information. In a related
audit, we conducted limited tests of the database’s information
                                                                       BUREAU INFORMATION
technology controls to determine their effectiveness in protecting     SYSTEMS IN QUESTION
the integrity of clearinghouse information.
                                                                       As part of our FY 2004 Department-wide FISMA review (see
                                                                       page 42), we evaluated the security of Census’s national-critical
REVIEW FINDINGS
                                                                       systems and elements of its mission-critical systems to determine
                                                                       whether the bureau’s related policies and procedures complied
Our review of the hard-copy reports found that only 3 of 200 were
                                                                       with the act as well as with OMB requirements and Commerce’s
incomplete: one was missing a corrective action plan detailing how
                                                                       IT security policy.
the auditee planned to resolve the audit findings, and two did not
contain the required Summary Schedule of Prior Audit Findings.
                                                                       Our evaluation found that the bureau’s IT security program gen-
                                                                       erally conformed in structure and intent with requirements of the
The comparison of the reports with their database entries revealed
                                                                       Department’s IT security program policy and other mandates, but
the following:
                                                                       that those requirements were not always appropriately applied,
    • Missing findings—the database did not contain findings           with the result that critical systems may not be adequately pro-
      for 7 of the 200 reports because auditors had not entered        tected. Among our specific findings were the following:
      the findings on the data collection forms in the audit
      packages.
                                                                       C&A PROCESSES AND DOCUMENTATION
    • Erroneous data elements—159 elements (from a universe            WERE SIGNIFICANTLY DEFICIENT
      of 14,800) were incorrect. Of these errors, 138 were the
      fault of the auditors or auditees, who provided incorrect        Certification and accreditation processes and documentation did
      or incomplete information in the reporting packages; the         not comply with either Department or FISMA requirements in a
      remaining 21 were bureau errors resulting from either            number of areas: risk assessments did not sufficiently identify
      programming problems or incorrect data entry. For the            system vulnerabilities; security plans assigned improper and in-
      bureau’s part, this is a vast improvement over our FY            consistent sensitivity levels to systems and did not adequately
      2000 findings, in which 244 of 370 errors were attribut-         describe the controls that were in place or needed; and one pack-
      able to the clearinghouse.                                       age lacked a complete contingency plan for a certified and ac-
                                                                       credited national-critical system. The documentation also did not
Tests of the web site’s functionality and the related accuracy of      identify residual risks in the certified and accredited systems, and
specific searches and information available to users found only        thus provided no evidence that the accrediting official understood
minor data errors, largely due to delays in updating web site in-      the level of risk being assumed in authorizing system operations.
formation. The clearinghouse is correcting the programs that gen-
erate this information.                                                SECURITY TESTING OF NATIONAL-
                                                                       CRITICAL SYSTEMS IS INADEQUATE
Our analysis of IT general controls, issued in a separate report,
found weaknesses in five areas: entity-wide security program plan-     The bureau’s national-critical systems are part of the federal
ning and management, access controls, application software de-         government’s critical infrastructure and must therefore be pro-
velopment and change control, system software, and service con-        tected from major disruptions. The bureau has not designated its
tinuity. Specifically, we noted that the clearinghouse system lacked   national-critical systems as having the highest sensitivity for pur-
(1) current, accurate technical documentation; (2) adequate poli-      poses of certification and accreditation and thus does not test their
cies and procedures for implementing changes; and (3) a central-       security controls as rigorously as the Department’s IT security
ized source of management and technical expertise.                     policy requires. In the event of a national security emergency, these



September 2004/Semiannual Report to Congress                                                                                          23
Economics and Statistics Administration




                                                                      track and manage efforts to resolve them. POA&Ms did not iden-
  Certification is the formal testing of the security                 tify residual risks for which additional controls are needed, the
  safeguards and controls implemented in a computer
  system to determine whether they meet applicable                    lack of contingency plans, or the need for additional testing to
  requirements and specifications.                                    ensure that systems are certified at a level commensurate with
                                                                      their sensitivity.
  Accreditation is management’s formal authorization to
  allow systems to operate. It includes an explicit acceptance
  of the identified residual risks.                                   BUREAU RESPONSE
  System sensitivity refers to FISMA’s three security                 Census officials generally agreed with our findings and described
  objectives for information and information systems:
                                                                      actions being taken or planned to implement our recommenda-
  confidentiality, integrity, and availability. System owners must
  assign a sensitivity level of high, medium, or low to each          tions. However, its actions for correcting the C&A deficiencies
  objective to reflect the impact that a system’s compromise          did not fully address our concerns: they did not ensure that
  would have on the agency’s mission, and must justify the            (1) only an acceptable level of risk remains in accredited sys-
  level assigned.                                                     tems, (2) testing is commensurate with the level of each system’s
                                                                      sensitivity, and (3) all known information security weaknesses
                                                                      are included in POA&Ms. (Office of Systems Evaluation: OSE-
systems—as currently defined—may not have the capability to           16519-1 and -2)
perform required processing.

DESIGNATED APPROVING AUTHORITY
SHOULD BE AN OFFICIAL WITH                                            INVESTIGATIONS
MANAGEMENT, OPERATIONAL, AND
BUDGET AUTHORITY OVER SYSTEM
                                                                      Former Census Manager
Departmental and OMB policy specify that designated approving         Convicted and Sentenced in
authorities or accrediting officials must be program officials who    Payroll Scam
have management, operational, and budget authority for the sys-
tem, and that they may not be system owners (i.e., division or        In our March 2004 Semiannual Report (page 43), we reported
office chiefs). Census’s policy, however, names its chief informa-    that a former Census assistant field manager was indicted for
tion officer as the designated approving authority for all systems,   theft in the U.S. District Court for the Western District of Michi-
even though this official does not have the required authority over   gan. An OIG investigation revealed that the individual created a
the bureau’s entire inventory.                                        payroll account in the name of another former Census employee,
                                                                      forged endorsements on the paychecks, and deposited the funds
PLANS OF ACTION AND MILESTONES DO                                     into a personal bank account. In August 2004, the former assis-
NOT ACCURATELY REFLECT SYSTEM                                         tant manager pleaded guilty to one count of theft and was sen-
SECURITY DEFICIENCIES                                                 tenced to 4 months’ imprisonment, 4 months’ home detention,
                                                                      and 3 years’ probation, and ordered to pay restitution in the amount
Contrary to OMB and the Department’s security policy, Census is       of $14,254. (Arlington Resident Office of Investigations)
not using POA&Ms to list all identified security weaknesses and




24                                                                               U.S. Department of Commerce/Office of Inspector General
                       INTERNATIONAL TRADE
                       ADMINISTRATION

                                   SHARED STRENGTHS AND WEAKNESSES
                                     NOTED AT THREE U.S. EXPORT

  T
          he
          International                ASSISTANCE CENTER NETWORKS
          Trade Administration is
  responsible for trade promotion and                  The U.S. Commercial Service (CS) operates 106 domestic U.S. export assis-
  policy issues associated with most                     tance centers (USEACs)—one-stop shops intended to bring together a range
  nonagricultural goods and services. ITA                  of federal and nonfederal trade-related agencies to provide local export as-
  works with the Office of the U.S. Trade                     sistance to small and medium-sized firms. The USEACs are grouped geo-
  Representative to coordinate U.S. trade policy.               graphically into 12 networks across the country.
  ITA has four principal units:
                                                                   In FY 2003 and 2004, OIG inspected three USEAC networks (Chi-
  Market Access and Compliance develops and imple-                  cago, Pacific Northwest, and Philadelphia), which comprise 28 sepa-
  ments international economic policies of a bilateral, mul-         rate USEAC offices, to evaluate their management, program opera-
  tilateral, or regional nature. Its main objectives are to ob-       tions, and financial and administrative practices. We reported the
  tain market access for American firms and workers and to             findings of our individual reviews in our March 2004 Semiannual
  ensure full compliance by foreign nations with trade agree-           Report (page 24). During this semiannual period, we issued a cross-
  ments signed with the United States.                                  cutting report that identified strengths and weaknesses common
                                                                         to the three networks and recommended actions to resolve them.
  Trade Development advises on international trade and in-
  vestment policies pertaining to U.S. industrial sectors, car-         USEACS HAVE GENERALLY SOUND
  ries out programs to strengthen domestic export competitive-          OPERATIONS AND WORK WELL WITH
  ness, and promotes U.S. industry’s increased participation in         TRADE PARTNERS AND CLIENTS ALIKE
  international markets.
                                                                        Each of the three USEAC networks is doing a good job of provid-
  Import Administration defends American industry against              ing export assistance to U.S. companies and has fairly sound fi-
  injurious and unfair trade practices by administering the           nancial and administrative operations. Relationships with trade part-
  antidumping and countervailing duty laws of the United             ners at the federal, state, and local level are strong and mutually
  States and enforcing other trade laws and agreements              beneficial. In some centers, Commercial Service is collocated with
  negotiated to address such trade practices.                      one or more trade partners, such as the Small Business Administra-
                                                                 tion, Export-Import Bank, state trade agencies, and universities. These
  U.S. Commercial Service promotes the export                  collaborative relationships better enable the USEACs to provide U.S. com-
  of U.S. products and helps small and medium-              panies with one-stop shopping for their export counseling, market research,
  sized businesses market their goods and                 and trade financing needs.
  services abroad. It has 106 domestic
  offices and more than 157 overseas                 Clients at all three networks reported satisfaction with the USEACs’ assistance and
  posts.                                         products, and generally found USEAC staff to be innovative, knowledgeable of over-
                                             seas markets, and well connected to trade partners and government contacts abroad. Some
                                         believed the USEACs needed to better promote their services. Others believed the centers could
                                     offer more specialized trade assistance and market information.

      OVERSTATED PERFORMANCE DATA AND OTHER DEFICIENCIES SUGGEST THE
NEED FOR IMPROVED MANAGEMENT OVERSIGHT

The networks failed to comply with CS guidelines on the reporting of export successes—the organization’s key performance measure—
and thus overstated their performance data for the period we reviewed: Chicago’s reported export value of $42.1 million was overstated



September 2004/Semiannual Report to Congress                                                                                         25
International Trade Administration




by $4.3 million (10 percent); Pacific Northwest’s reported export        be implemented in 2006 and developing product pricing templates
value of $263 million was overstated by $156 million (59 percent);       to capture the full direct and indirect costs for its products. The
and Philadelphia’s export value of $145.1 million was overstated         agency also submitted a Circular A-25 compliance plan to OMB
by $14.5 million (10 percent).8 We also found export success re-         in September 2004. We note that, in addition to these actions,
ports that failed to clearly demonstrate the link between the out-       ITA staff will need guidelines and training on the need to charge
come and the assistance provided, and client records that did not        for government services and on calculating and collecting appro-
sufficiently demonstrate the chain of events leading to the success.     priate fees. (Office of Inspections and Program Evaluations: IPE-
Further, we noted that despite a CS strategic goal to expand the         16728)
number of U.S. exporters, Commercial Service does not accurately
track USEAC assistance to firms that are new to exporting.

Coupled with these common problems, we noted some operational,
financial, and administrative weaknesses unique to each network,         CS INDIA GENERALLY
which, in combination with the shared deficiencies, suggest that         OPERATES WELL, BUT
Commercial Service needs to improve its oversight of domestic            CLOSER ATTENTION TO
field operations.
                                                                         EXPORT SUCCESS
ACTIONS NEEDED TO BRING ITA INTO                                         REPORTING AND TRADE
COMPLIANCE WITH OMB CIRCULAR A-25                                        EVENTS IS NEEDED
At the time we conducted our USEAC reviews, we found that                With offices in seven cities, Commercial Service’s post in India is
Commercial Service’s user fee policy—to recover just some of its         one of its largest overseas operations. India is the world’s 12th
direct costs—conflicted with OMB Circular A-25, which requires           largest economy and one of the fastest growing as well. It has
full cost recovery for goods and services agencies provide when          more than 1 billion residents, a huge and expanding middle class
such resources convey benefits beyond those enjoyed by the gen-          (currently some 200 million), and a demand for U.S. consumer
eral public. ITA asked OMB to waive the requirement, but OMB             goods that is strong and expected to remain so. The United States
denied the request.                                                      is India’s single largest trading partner: U.S. exports to that coun-
                                                                         try in 2003 were $5 billion, up 22 percent from the previous year.
AGENCY RESPONSE                                                          Corresponding imports from India to the U.S. totaled $13.1 bil-
                                                                         lion, up 10.4 percent.
Both ITA and Commercial Service agreed that oversight of export
success reporting, fee collections, and compliance with CS policies      We conducted an inspection of CS India in May and June 2004,
could be strengthened. To that end, ITA noted that it has appointed      visiting all seven offices: Ahmedabad, Bangalore, Calcutta,
a quality control officer to monitor export success reporting world-     Chennai, Hyderabad, Mumbai, and New Delhi. We assessed the
wide, and is working to revise its client management database to         post’s management, program, financial, and administrative opera-
capture assistance provided to new exporters. Commercial Service         tions, as well as its coordination with other organizations in achiev-
noted that it has developed and implemented new reporting guide-         ing ITA and Commerce goals. Our purpose was to determine
lines that should minimize reporting errors and improve compli-          whether the post plans, organizes, and controls its work and re-
ance, and it is working to train CS managers and staff on correct        sources effectively; meets the needs of U.S. exporters; is helping
reporting procedures. We evaluated the guidelines and recommended        increase U.S. export levels and market access; and has appropri-
that Commercial Service revise them to include instructions for          ate internal controls and financial management procedures.
(1) reporting export successes with financial institutions, and
(2) determining how soon after interacting with a client, staff should   We found that the post is generally well run and doing a good job
create a formal client record in Commercial Service’s client man-        of providing export assistance to U.S. companies: clients we spoke
agement database. The agency is evaluating our suggested revisions.      with are generally satisfied with CS India’s products and services,
                                                                         and the post collaborates well with its trade partners, other com-
Finally, ITA reported that it is taking steps to comply with OMB         ponents of the U.S. mission and ITA, and other government agen-
Circular A-25: it is acquiring a new accounting system that should       cies. However, we identified a number of issues that warrant Com-
                                                                         mercial Service’s attention, as follows:
8
  For the Chicago network, we reviewed the 273 export success records
approved from October 1, 2002, to July 9, 2003. For the Pacific North-
west and Philadelphia networks, we examined a random sample of ap-
proximately 20 percent of the export success records approved during
FY 2003—761 and 489, respectively.




26                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                           International Trade Administration




                                                                               port success reports and to improve quality controls and over-
                                                                               sight of performance reporting, we are concerned that Com-
                                                                               mercial Service, in revising its reporting guidelines this past
                                                                               fiscal year, may have reduced management accountability
                                                                               for ensuring the accuracy of export success reports. This may
                                                                               explain some of the reporting errors. We thus recommended
                                                                               that current CS performance measure guidelines be revised
                                                                               to include the specific oversight responsibilities delineated
                                                                               in prior guidelines.

                                                                               FEE ARRANGEMENTS AND SUPPORT
                                                                               PROVIDED FOR SEVERAL TRADE
                                                                               EVENTS WERE INAPPROPRIATE

                                                                               For several trade fairs held during FY 2003-2004, CS India
                                                                               inappropriately collected or agreed to accept fees that were
                                                                               based on the cost per square meter of space rented by par-
                                                                               ticipants the post recruited, rather than on the cost of the CS
                                                                               services provided. In addition, these events were not certi-
                                                                               fied by the Department of Commerce, and as such, we ques-
                                                                               tioned whether the post’s involvement in them was greater
                                                                               than it should have been. (See box next page.)

                                                                               MISMANAGED TRADE PROGRAM
                                                                               LEAVES $25,000 IN FUNDS
                                                                               AVAILABLE FOR BETTER USE
Source: http://www.mapsofindia.com, accessed July 19, 2004.
                                                                                 USA Day Events was a series of trade events initiated in
                                                                         FY 2001, planned for 12 cities in western India, and financed with
POST MANAGEMENT HAS                                                      $93,000 from companies agreeing to sponsor the series. Plagued
RESTRUCTURED AND STRENGTHENED                                            by financial and management problems, USA Day Events was
OPERATIONS, BUT EXPORT SUCCESS                                           discontinued in FY 2002, but financial-related issues remained
REPORTING REMAINS PROBLEMATIC                                            unresolved at the time of our inspection in 2004. Commercial
                                                                         Service and ITA had intended to disburse approximately $25,000
The current senior commercial officer (SCO), who arrived at post         to the event organizer to cover the cost of the six events that had
in July 2003, has set a strong management tone, instituted a num-        been held before the program’s cancellation, with the expectation
ber of measures to enhance staff interactions with customers and         that the organizer would refund all sponsor contributions. How-
trade partners, and refocused staff energies on Commercial               ever, we advised ITA and Commercial Service that there was no
Service’s core mission of assisting U.S. exporters. He set an FY         written agreement with the organizer requiring that it refund spon-
2004 goal of doubling the number of export successes achieved in         sor donations and hence no guarantee that it would, and further,
the prior year. As of June 2004, the post had already reported 505       that it was uncertain whether the organization still had the remain-
successes—a 241 percent increase over the FY 2003 total of 148.          ing $68,000 needed to make a full refund. We recommended that
                                                                         the agencies therefore not make the $25,000 payment. They agreed,
However, our review of FY 2004 export successes reported by three        which resulted in $25,000 to be put to better use. We also recom-
offices (Bangalore, Chennai, and Hyderabad) found that many did          mended that ITA do the following: (1) ask the Department’s Of-
not meet CS guidelines. In a number of cases we could not verify         fice of General Counsel to clarify whether Commercial Service
the link between CS assistance and the reported success, and iden-       can collect promotional fees from non-U.S. government event
tified several that did not meet export success criteria. As a result,   organizers; (2) oversee post trade events to help ensure that fi-
the SCO reviewed export successes and either removed, withdrew,          nances for these activities are handled appropriately; and (3) en-
or combined 50 of them in the CS database, and some additional           sure that commercial officers worldwide receive training on ITA
deletions may still be needed. Although ITA and Commercial Ser-          policies regarding trade fairs and trade event financing, as well as
vice have taken steps to highlight the importance of accurate ex-        Commerce guidelines on interoffice and other special agreements.




September 2004/Semiannual Report to Congress                                                                                            27
International Trade Administration




                                                                             year in rent on space that is much larger than needed. We
   CERTIFIED VS. NONCERTIFIED EVENTS                                         recommended that Commercial Service evaluate staffing
                                                                             allocation and utilization throughout India and explore
   Each year the Department of Commerce selects trade
   fairs in prime markets worldwide and certifies them via the               options for reducing CS India’s rent obligations.
   Trade Fair Certification Program. This program is a                    • Inconsistent handling of currency collections. CS India
   cooperative arrangement between U.S. private sector
                                                                            sometimes deposited payments from clients with the
   trade show organizers and Commerce through which the
   Department aids organizers’ efforts to recruit U.S. exhibi-              State Department, rather than in its lockbox, as required,
   tors and manage an official U.S. government-sponsored                    and failed to charge associated service fees, largely
   pavilion, and arranges for support from Commercial                       because of conflicting written guidance on the matter.
   Service’s domestic offices and posts.
                                                                          • Untimely completion of performance appraisals. Post
   According to an official from CS’ Trade Certification                    management was sometimes late in providing personnel
   Program, post support for certified fairs involves actively              evaluations, and pay increases for some foreign service
   recruiting exhibitors and arranging support services from                nationals were delayed as a result.
   domestic CS offices. For noncertified fairs, CS support is
   supposed to be limited to information sharing, e.g., market
   briefings and public relations duties. This official noted that    AGENCY RESPONSE
   when posts provide the same level of services for certified
   and noncertified fairs, they dilute the value of certification
   and of Commerce’s endorsement.                                     ITA and Commercial Service concurred with most of our recom-
                                                                      mendations and, among other things, agreed to do the following:
                                                                          1. Review current staffing patterns and resource allocations
                                                                             in India and recommend appropriate changes.
GENERALLY SOUND POST OPERATIONS
                                                                          2. Evaluate the post’s office space allocations and rent
HAVE A FEW AREAS OF WEAKNESS
                                                                             obligations, and address issues pertaining to the business
                                                                             information centers.
In general, CS India’s financial and administrative operations were
sound, but several issues need to be resolved:                            3. Provide appropriate financial and administrative training
                                                                             to CS India officers and foreign national staff.
    • Questionable resource utilization. The post’s business
      information centers are underutilized and ill equipped,             4. Continue to improve the post’s record for completing
      and in some instances occupy an inordinate amount of                   timely personnel evaluations.
      office space. Nearly half of all foreign service nationals
      perform a mix of non-trade-related functions rather than        Both agencies disagreed with our finding that its FY 2004 export
      core mission duties. Two offices are located in luxury          success reporting guidelines have reduced management account-
      hotel space rather than readily available commercial            ability for ensuring the quality and integrity of reported successes.
      space. And finally, CS New Delhi is paying $66,000 per          (Office of Inspections and Program Evaluations: IPE-16808)




28                                                                               U.S. Department of Commerce/Office of Inspector General
                       NATIONAL OCEANIC
                       AND ATMOSPHERIC
                       ADMINISTRATION
                                      LATEST AUDIT OF NOAA PERFORMANCE

    T
            he                               MEASURES IDENTIFIES CONTINUED
            National
            Oceanic and                             WEAKNESSES IN REPORTING
    Atmospheric Administration                          PROCEDURES
    studies climate and global change;
    ensures the protection of coastal oceans and             Our focus on NOAA’s annual performance reporting continued this past semi-
    the management of marine resources; provides                annual period with an audit of its procedures for collecting, verifying, and
    weather services; and manages worldwide                       presenting data for another three performance goals: (1) build sustainable
    environmental data. NOAA does this through the                 fisheries, (2) recover protected species, and (3) predict and assess decadal
    following organizations:                                         to centennial climate change. The first two goals are supported by Na-
                                                                      tional Marine Fisheries Service (NOAA Fisheries) activities; the third
    National Weather Service reports the weather of the
                                                                        goal, by the Office of Oceanic and Atmospheric Research (OAR) and
    United States and provides weather forecasts and
                                                                         the National Environmental Satellite, Data, and Information Service
    warnings to the general public.
                                                                          (NESDIS).
    National Ocean Service issues nautical charts; performs
    geodetic surveys; conducts research; and develops policies             We assessed the collection and reporting of information and docu-
    on ocean mining and energy.                                            mentation supporting performance data contained in the
                                                                            Department’s FY 2002 Performance and Accountability Report
    National Marine Fisheries Service (NOAA Fisheries)
                                                                            to determine whether NOAA had internal controls of sufficient
    conducts a program of management, research, and services
                                                                            quality to ensure that data is accurate, consistent, and reliable. The
    related to the protection and rational use of living marine
                                                                           findings in this audit mirrored those of the two we concluded in
    resources.
                                                                           FY 2003.9 Once again, we found that for each goal, the usefulness
    National Environmental Satellite, Data, and                           of the reported data was compromised by unclear measures, weak
    Information Service observes the environment by                       procedures for ensuring data reliability, insufficient documentation,
    operating a national satellite system.                               and inadequate explanations.
    Office of Oceanic and Atmospheric Research
                                                                   Imprecise Wording. As currently worded, certain measures under these
    conducts research related to the oceans and inland
                                                                  goals do not clearly or accurately convey the reported activity. For ex-
    waters, the lower and upper atmosphere, space
                                                                ample, FY 2001 results reported under “recover protected species” in-
    environment, and the Earth.
                                                               correctly imply that NOAA Fisheries is assessing its successes at improv-
    Office of Marine and Aviation Operations                 ing individual species to the point where they move from the threatened or
    operates NOAA’s ships and aircraft and                endangered categories. However, this is not the case. NOAA Fisheries officials
    provides NOAA programs with trained                explained the measures are intended to report any success at stabilizing or im-
    technical and management                        proving the status of a species, though it might remain in the threatened or endan-
    personnel from the nation’s                  gered categories.
    seventh uniformed
    service.                               OAR and NESDIS reporting under “predict and assess decadal to centennial climate change”
                                      is flawed as well. For example, the measure for long-term changes in temperature and precipita-
                                tion does not convey that data is collected from the contiguous United States only.


9
 Department of Commerce, Office of Inspector General, Improvements Needed in Reporting of Performance Measures Related to Promoting Safe
Navigation and Sustaining Healthy Coasts, Report No. FSD-14998, February 2003; and Improvements Needed in the Reporting of Performance
Measures Related to Goals for Advancing Short-Term Warnings and Implementing Seasonal to Interannual Climate Forecasts, Report No. FSD-
15643, September 2003.




September 2004/Semiannual Report to Congress                                                                                                29
National Oceanic and Atmospheric Administration




                NOAA GOALS                                           Insufficient Oversight. For the goal, “predicting and assessing
           AND MEASURES ASSESSED                                     decadal to centennial climate changes,” NOAA does not have pro-
 Performance
                                                                     cedures or an established chain of command at the program level
 Goals                       Associated Measures                     for verifying the accuracy of collected data and related explana-
                                                                     tions, a deficiency that permitted the reporting of incorrect infor-
 Build              • Reduce the number of overfished major          mation. To ensure data reliability, management must give greater
 Sustainable          stocks of fish from 56 to 45 by FY 2007        attention to the reporting process and see that performance mea-
 Fisheries          • Reduce the number of major stocks with
                                                                     sures clearly represent what is being reported, appropriate sup-
                      an “unknown” stock status to no more
                      than 98 by FY 2007
                                                                     porting documentation is maintained, and explanations contain
                    • Increase the percentage of plans to            sufficient and accurate details.
                      rebuild overfished major stocks to
                      sustainable levels
                                                                     NOAA’S RESPONSE
 Recover            • Reduce by 10 (from a FY 2000 baseline
 Protected            of 27) by FY 2007, the number of               NOAA generally concurred with our recommendations for im-
 Species              threatened species at risk                     proving performance measures and reporting and identified ac-
                    • Increase the number of commercial              tions taken or planned to address them. (Financial Statements and
                      fisheries that have insignificant marine
                                                                     Accountability Division: FSD-15989)
                      mammal mortality
                    • Reduce by 11 (from a FY 2000 baseline
                      of 29) by FY 2007, the number of
                      endangered species at risk of extinction
 Predict and        • Assess and model carbon sources and            INQUIRY INTO HIRING FOR
 Assess               sinks throughout the United States             SENIOR EXECUTIVE POSITION
 Decadal to         • Assess and model carbon sources and
 Centennial           sinks globally                                 FINDS ROOM FOR
 Climate            • Determine actual long-term changes in          IMPROVEMENT
 Change               temperature and precipitation
                      throughout the United States
                                                                     We received a complaint charging that NOAA, in filling the posi-
                                                                     tion of assistant administrator for weather services, chose an ap-
                                                                     plicant who was not a meteorologist and therefore did not meet
Problematic Baseline Data. For measures under the sustainable
                                                                     the advertised qualifications for the job. The complainant further
fisheries and protected species goals, NOAA Fisheries uses
                                                                     charged that NOAA’s human resources management (HRM) di-
baseline fish stock data that, for some measures, precludes accu-
                                                                     rector circumvented the selection process by improperly adding
rate assessment: not only is the data always changing but the
                                                                     names to the list of candidates that the screening panel referred to
changes may reflect a worsening condition for a species as well
                                                                     the selecting official.
as an improvement. For example, in reporting its FY 2001 perfor-
mance under “reduce the number of overfished major stocks,”
                                                                     Our inquiry found that the occupational series under which the
NOAA Fisheries compared the number of species listed as over-
                                                                     position was advertised does require a degree in meteorology, but
fished in the FY 2000 baseline against its performance with these
                                                                     only for general schedule employees. The assistant administrator
species in FY 2001 and indicated a significant improvement. How-
                                                                     for weather services is a senior executive service position, and as
ever, nine species in the FY 2000 baseline had actually been moved
                                                                     such was exempt from this educational requirement. In fact, the
to worse categories in FY 2001.
                                                                     professional and technical qualifications contained in the an-
                                                                     nouncement did not include a degree in meteorology or any other
Inadequate and Inaccurate Documentation and Explana-
                                                                     science. The candidate ultimately chosen met all stated require-
tions. The responsible NOAA agencies did not maintain appro-
                                                                     ments for the position and was rated well qualified or higher by
priate documentation for many of the measures under the three
                                                                     all members of the screening panel.
goals. In some cases, documentation did not support reported
data, and in others it was simply not available. Explanations of-
                                                                     However, we did find that NOAA failed to fully comply with its
ten did not include details essential to understanding the data or
                                                                     own selection procedures, as stipulated in its Executive Resources
the agency’s real impact on reported outcomes; contained erro-
                                                                     Merit Staffing and Recruitment Plan:
neous or incomplete information; described verification proce-
dures that ascertained the scientific quality of the data rather         • The plan calls for screening panel members to rate and
than the accuracy of the numbers; or did not explain that the              rank each applicant, and sign an overall rating form for
data was cumulative.                                                       all candidates. The panel never signed off on that form.




30                                                                              U.S. Department of Commerce/Office of Inspector General
                                                                                        National Oceanic and Atmospheric Administration




    • The plan also requires the panel to reach consensus on a       Nearly $670,000 in
      list of best-qualified candidates for referral to the
      selecting official and document its choices. The panel did
                                                                     Administrative Costs
      not prepare such documentation.                                Questioned in Oregon Salmon
                                                                     Recovery Program
Should panel members fail to reach consensus on the best-quali-
fied candidates, the plan is silent on how to resolve their dis-     An Oregon state board received a multiyear salmon recovery fund
agreement. The Department’s Executive Personnel Policy               grant in June 2000 for projects to eliminate waterway barriers to
Manual, for example, gives the director of human resources au-       fish passage, enhance in-stream habitats, and conduct other salmon
thority for resolving such matters. The NOAA plan does not.          recovery efforts. Estimated costs of the program totaled $30 mil-
Rather than try to facilitate consensus, NOAA’s HRM director         lion, including $24 million in federal funds and a 25 percent state
simply referred to the selecting official all candidates deemed      match. Under the terms of the grant, the agency was permitted to
by the panel to be either highly qualified (one) or well qualified   use no more than 3 percent of the federal share to administer
(five). Though we concluded that it would have been prudent for      $29,293,265 in subgrants to project participants.
the HRM director to reconvene the screening panel and attempt
to obtain consensus, we believe that—given the small pool of         Our interim audit examined $671,463 in administrative costs claimed
highly and well-qualified candidates—the director’s decision to      through March 2003. Of that amount, we questioned $669,369 con-
refer them all was reasonable.                                       sisting of unsupported personnel costs and related fringe benefits,
                                                                     and costs that were not included in the approved program budget.
To avoid similar problems in the future, we recommended that         We also determined that the recipient’s interim claim for adminis-
NOAA require panel members to thoroughly document their de-          trative costs exceeded the 3 percent limit by $216,355.
cisions, and revise its recruitment plan to be consistent with the
Department’s Executive Personnel Policy Manual and to include
clear procedures for resolving panel member disagreements.
NOAA agreed to implement our recommendations. (Office of In-
spections and Program Evaluations: IPE-16823)




PACIFIC COASTAL
SALMON RECOVERY FUND
Between 2000 and 2004, NOAA provided more than
$68 million in salmon recovery fund grants to the state of
Oregon and $136 million to the state of Washington to sup-
port approximately 1,500 state and local projects in salmon
recovery and watershed assessment. During these same
years, resident tribes in Oregon, Washington, California, and
Idaho received $56.3 million in funding for salmon
habitat restoration and enhancement programs.
Grants awarded to states require a 25 percent
match. Grants to tribes require no match.

The Office of Inspector General began a series of
audits of salmon recovery fund awards this semi-
annual period, looking at the administration of the
subgrant program operated by the state of Oregon,
and two tribal projects in Washington funded un-
der a grant to a nonprofit Indian commission. The
results of our initial audits are summarized here. Source: http://www.co.clackamas.or.us/wes/sr/main.htm, accessed October 15, 2004.




September 2004/Semiannual Report to Congress                                                                                      31
National Oceanic and Atmospheric Administration




We recommended that the director of NOAA grants management,             The second tribe submitted costs totaling $922,912, of which we
among other things,                                                     questioned $271,476 as unsupported, again because the recipient
    • disallow questioned costs of $669,369 and                         did not comply with federal cost principles and uniform adminis-
                                                                        trative requirements. Also, the tribe was often either seriously de-
    • require the recipient to implement controls to support and        linquent in submitting required progress reports or did not pro-
      properly account for grant-related expenses, adhere to            vide them at all.
      administrative cost ceilings, and restrict spending to
      approved budget categories.                                       Audit Recommendations. We recommended that the director of
(Seattle Regional Office of Audits: STL-15727)                          NOAA grants management disallow the questioned costs identi-
                                                                        fied in both audits, recover the combined federal share of $870,982,
                                                                        and direct the commission to take specific actions to resolve the
Audit Recommends                                                        internal control and other management weaknesses we noted in
Recovery of $871,000 from                                               each tribe’s administration of its project. (Seattle Regional Office
Washington Tribes                                                       of Audits: STL-16657-1 and –3)

In April 2000, NOAA awarded a $5 million salmon recovery fund
grant to a Native American commission representing 20 Wash-
ington state tribes. Subsequent amendments to the 5-year award          INVESTIGATIONS
brought the total to $27.3 million. No matching funds were re-
quired.
                                                                        Former NOAA Intern Convicted
The commission entered into a memorandum of understanding with          of Interstate Communication
NOAA, which gave it responsibility for administering the grant—         of a Threat
reviewing, approving, and funding projects proposed by its 20 mem-
bers. The commission in turn executed subgrants with its member         In our March 2004 Semiannual Report (page 44), we reported
tribes, allotting each an equal share (roughly $1.3 million) of grant   that a former NOAA intern was indicted on one count of inter-
funds for tribal projects and establishing project parameters and       state communication of a threat for transmitting an e-mail mes-
reporting and cost reimbursement requirements.                          sage threatening bodily harm to another NOAA employee. In June
                                                                        2004, the former intern pleaded guilty in U.S. District Court for
During this semiannual period, we completed interim audits of           the District of South Carolina, and was sentenced to 12 months’
salmon recovery fund projects conducted by two tribes to deter-         probation and ordered to pay a $500 fine. (Atlanta Field Office of
mine whether they were complying with the terms and conditions          Investigations)
of the NOAA award and the subgrants; claimed costs were rea-
sonable, allowable, and allocable to the project; and program ob-
jectives were being achieved. Our audit covered the period from         NOAA Manager Reprimanded
April 2000 though September 2003.                                       for Accepting Gratuity and
                                                                        Attempting to Interfere
While we determined that both tribes were making sufficient
progress toward their program goals, our audits disclosed admin-        with Investigation
istrative deficiencies in each case that resulted in our questioning
costs and recommending several other remedies, as follows:              An OIG investigation disclosed that a NOAA manager solicited
                                                                        and accepted a gratuity from a prohibited source when he re-
Tribes Owe the Government a Combined Total of $870,982.                 quested and received the assistance of a contract employee in
During our audit period, one tribe submitted costs to the commis-       making design improvements to his personal residence, includ-
sion totaling $868,834. Of that amount, we questioned $599,506          ing redesign of the family room. During the course of our inves-
in labor and related fringe benefits and indirect costs because the     tigation, the manager made statements to the investigating agents
tribe failed to adhere to federal cost principles and uniform ad-       that were apparently intended to interfere, obstruct, or impede
ministrative requirements. In addition, the tribe had not imple-        the inquiry. As a result, in July 2004, the employee received a
mented the minimum property management standards required               Letter of Reprimand for his misconduct. (Washington Field Of-
under the award and did not have fidelity bonding on its contract       fice of Investigations)
accounting staff to safeguard award assets from loss or misappro-
priation.




32                                                                                 U.S. Department of Commerce/Office of Inspector General
                    NATIONAL
                    TELECOMMUNICATIONS AND
                    INFORMATION ADMINISTRATION
                          MINOR NONCOMPLIANCE FOUND IN AUDIT
                            OF FLORIDA GRANTEE
 T        he
          National
 Telecommunications and
                                         In September 2001, NTIA awarded an $807,687
                                            Public Telecommunications Facilities Program
                                              grant to a public broadcasting TV station in
                                                                                               The Public Telecommunications Facilities
                                                                                               Program is NTIA’s competitive grants
 Information Administration
                                                                                               program designed to help public broad-
 serves through the Secretary of               central Florida operated by a community
                                                                                               casting stations, state and local govern-
 Commerce as the executive branch’s              college that, in partnership with a local     ments, Indian tribes, and nonprofit
 principal advisor to the President                network station, planned to build a digi-   organizations construct broadcasting
 on domestic and international                      tal transmission facility the two would    facilities that offer educational and cultural
 telecommunications and information                   share. The grant, which expired in       programming. In conjunction with the
                                                                                               Corporation for Public Broadcasting, the
 policy issues. NTIA manages the                      September 2003, required matching
                                                                                               program provides grants to public
 federal use of the electromagnetic                    funds of roughly $2.4 million, for      broadcasters to fund conversion to digital
 spectrum, provides grants for national                total project costs of $3.2 million.    transmission, maintain existing equip-
 information and public broadcasting                   The stations serve a combined popu-     ment, and expand broadcasting services.
 infrastructure projects, and performs                 lation of 3.4 million.
 telecommunications research and
 engineering. It works to enhance                     We audited the award to determine whether the grantee had complied with applicable
 citizens’ access to cable television,               federal laws and regulations and NTIA grant terms and conditions. Our audit disclosed
 telephone, and other                               that the college had not complied with certain federal and departmental administrative
 telecommunications services;                      reporting requirements, as follows:
 and educates state and                          • Final inventory lists. Federal regulations require recipients to submit complete
 local governments and other                        inventory lists of purchased equipment at a project’s conclusion. The college’s initial
 entities on ways to use                            list contained inaccurate pricing information. At the time of our audit, it had not
 information technology and                         provided a corrected version.
 telecommunications
                                       • Timely financial and performance reporting. The Department requires financial assistance
 more effectively.
                                         recipients to submit semiannual reports on a project’s financial status and quarterly reports on
                                         performance within 30 days of the end of the reporting period. The college was late in submit-
                                         ting two of its four financial reports and one performance report.
    • Project closeout. Once a project is concluded and costs determined, recipients must report final costs. The college submitted a
      closeout report that detailed costs of more than $3.3 million, representing all costs incurred on the project. However, approved
      project costs totaled only $3,250,750, and the college did not submit a new closeout report reflecting the lower amount.

In response to our audit, the college agreed to submit corrected inventory and financial reports. (Atlanta Regional Office of Audits: ATL-
16806)




September 2004/Semiannual Report to Congress                                                                                           33
                    TECHNOLOGY
                    ADMINISTRATION

                                PENNSYLVANIA FIRM AGREES TO PAY
                                   $1.75 MILLION TO SETTLE AUDIT FINDINGS
 T
         he
         Technology                   AND FALSE CLAIMS ACT ALLEGATIONS
         Administration
 serves the needs of technology-                    A Pennsylvania medical research firm has agreed to pay the government
 based industry, advocates federal                    $1.75 million to resolve outstanding audit findings and allegations of False
 actions and policies to speed the transfer             Claims Act violations arising from the firm’s administration of a $21.3 mil-
 of technology from the laboratory to the                 lion award under NIST’s Advanced Technology Program (ATP). The award
 marketplace, and removes barriers for                      was intended to fund a joint venture to develop a searchable multimedia
 commercializing new technologies. It includes               database for the healthcare industry.
 three major organizations:
                                                                  The civil settlement was the result of nearly 3 years of OIG audit and
 Office of Technology Policy works to raise national               investigative work that identified millions of dollars of questioned
 awareness of the competitive challenge, promotes                   costs charged to the project, and uncovered substantial evidence
 industry/government/ university partnerships, fosters                that the firm had submitted multiple false claims to NIST between
 quick commercialization of research results, promotes                 June 1999 and September 2000 in order to satisfy a portion of its
 dedication to quality, increases industry’s access to and             required $6.7 million cost share. We found that employees of the
 participation in foreign research and development, and                 firm had created false time records for two physicians
 encourages adoption of global standards.                               unassociated with the project—forging the signature of one of
 National Institute of Standards and Technology                         them—and charged the project for the purchase of medical equip-
 promotes U.S. economic growth by working to develop                    ment that was never used, resulting in NIST’s reimbursement to
 and apply technology, measurements, and standards.                     the firm for approximately $280,000 in fraudulent claims. The
 NIST manages four programs: the Advanced Technology                   firm denied the government’s allegations of wrongdoing, but
 Program, the Manufacturing Extension Partnership                     agreed to settle the matter in order to finally resolve all outstand-
 program, and the Baldridge National Quality Program.                ing issues between the parties.

 National Technical Information Service is a self-                   The civil settlement agreement was reached between the firm, NIST,
 supporting agency that promotes the nation’s                      and the U.S. Attorney’s Office for the Western District of Pennsylva-
 economic growth and job creation by providing                    nia. Under the terms of the settlement agreement, NIST will receive
 access to information that stimulates innovation               about $1.6 million, with the balance of the funds to be returned to the
 and discovery. NTIS accomplishes this mission                 U.S. Treasury. (Atlanta Regional Office of Audits and Atlanta Field Of-
 through information collection and                          fice of Investigations)
 dissemination to the public and through
 information and production services
 to federal agencies.
                                                                         ADVANCED TECHNOLOGY PROGRAM
                                                                        As part of its efforts to spur technological development,
                                                                        NIST administers the Advanced Technology Program to
                                                                        provide financial assistance through cooperative
                                                                        agreements, with the goal of transferring cutting-edge
                                                                        technology to industrial uses. During this semiannual
                                                                        period, we audited costs claimed under five ATP awards.
                                                                        We questioned costs in all five projects, for a total of
                                                                        $781,782. In addition, we recommended that $102,489 in
                                                                        federal funds from one project be put to better use.




34                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                                    Technology Administration




AWARD SUSPENSION                                                         UNDOCUMENTED COSTS
REAFFIRMED BY FOLLOW-UP                                                  AND EXCESS FEDERAL
AUDIT                                                                    DISBURSEMENTS FOUND IN
                                                                         GEORGIA-BASED BIOTECH
In September 2001, NIST awarded a $2 million ATP cooperative
agreement to a New York City firm that engineers technologies            PROJECT
for computer-aided surgery. The purpose of the project was to
enhance the usability of computerized anatomic models for test-          In October 2000, NIST awarded a $1.97 million ATP cooperative
ing cancer treatment surgeries. The 3-year agreement required the        agreement to a Georgia-based biotechnology company to develop
firm to contribute $110,500 in direct costs, bringing total esti-        genetic-transfer processes for enhanced chicken breeding. NIST
mated direct costs of the project to $2,110,500.                         subsequently reduced the award amount to $1.95 million and re-
                                                                         quired a $400,838 match from the recipient, bringing total project
In July 2003, we issued a limited scope audit report (see Septem-        funds to roughly $2.36 million.
ber 2003 Semiannual Report to Congress, page 33) informing
NIST that the company had failed to contribute any of its match-         At NIST’s request, we conducted an audit in January 2004 to de-
ing share ($54,084 was due at that point), had drawn down                termine the propriety of selected costs charged to the award, and
$205,125 in excess of the federal share of project costs, and had        the recipient’s compliance with applicable federal laws and regu-
overstated expenses in its financial reports to justify the excess       lations and award terms and conditions.
drawdowns. At our recommendation, NIST suspended the award
pending the firm’s repayment of $205,126 and its submission of           We questioned $101,887 in costs claimed for equipment leasing,
corrected financial status reports.                                      salaries, fringe benefits, and travel: the leasing costs were incurred
                                                                         after the award’s expiration date, the salary costs were not ad-
Subsequent to our July 2003 audit, the recipient revised its finan-      equately documented, and the travel costs should have been
cial status reports and hired a new accounting firm (its third on        charged to an unrelated project.
this project) to review project expenditures and adjust its books
accordingly. We conducted a follow-up audit to review the re-            The cooperative agreement expired in October 2003, and the final
vised records and other documentation provided by the firm in            closeout payment was made by NIST in December 2003. Our close-
support of its claimed costs.                                            out audit determined that the recipient had received $84,566 in re-
                                                                         imbursements beyond the allowable federal amount. We recom-
We found that the company’s revised financial reports were still         mended that NIST disallow all questioned costs, recover the excess
inaccurate. We questioned costs totaling $547,426 in inappropri-         federal disbursements of $84,566, and deobligate the remaining
ately charged rent, utilities, and certain salary, fringe benefit, and   $102,489 in award funds, which will allow the agency to put those
other expenses. We determined that these costs were either               funds to better use. (Atlanta Regional Office of Audits: ATL-16672)
(1) unallowable under ATP award terms, (2) in excess of budget-
ary limits, or (3) expenses that should have been categorized as
indirect costs and therefore the firm’s responsibility. The improper
claims occurred, in part, because the recipient’s financial man-
                                                                         QUESTIONED COSTS IN
agement system did not meet federal standards for identifying and        PENNSYLVANIA JOINT
separating direct and indirect costs.                                    VENTURE PROJECT DUE TO
We recommended that NIST disallow the questioned amount of
                                                                         NONCOMPLIANT FINANCIAL
$547,426 and recover $582,222 in excess federal disbursements,           SYSTEMS
including the $205,126 in improper drawdowns identified in our
July 2003 audit, which has not yet been repaid. (Atlanta Regional        A Pennsylvania manufacturer of diabetes equipment received an
Office of Audits: ATL-16095)                                             ATP award as administrator of a joint venture formed to develop
                                                                         an optical blood glucose monitor that could be implanted under
                                                                         the skin. Total estimated costs of the 3-year project were
                                                                         $5.7 million, with the government’s share not to exceed $2.8 mil-
                                                                         lion, or 49 percent of allowable costs.

                                                                         Our interim financial audit examined the firm’s requests for reim-
                                                                         bursement submitted during the project’s initial 17 months (Octo-
                                                                         ber 2001 to March 2003): the administrator submitted costs on




September 2004/Semiannual Report to Congress                                                                                             35
Technology Administration




behalf of the joint venture of $721,672 and received federal reim-              Our audit also disclosed that the firm had improperly borrowed
bursement of $354,000. It retained $197,264 as its share and dis-               $17,000 in ATP funds. Although the money was subsequently re-
bursed the remaining $156,736 to its joint venture partner.                     paid, the use of project funds for nonproject purposes is strictly
                                                                                prohibited by the terms of the award. In addition, we found that
We questioned $89,103 of the administrator’s claimed costs—the                  the firm did not have the required procedures for managing fed-
majority of which were for fringe benefits—because the adminis-                 eral funds and project-related property.
trator improperly included company overhead costs in its fringe
benefit allocation. We recommended that NIST disallow all ques-                 In response to our draft audit report, the recipient submitted writ-
tioned costs and recover excess federal funds of $44,170. (Denver               ten policies and procedures addressing these findings, which we
Regional Office of Audits: DEN-16669)                                           reviewed and found to be adequate. We recommended that NIST
                                                                                take action to ensure the recipient implements them. (Denver Re-
                                                                                gional Office of Audits: DEN-16591)

AUDIT FINDS UNSUPPORTED
COSTS, IMPROPER LOAN,
                                                                                COST AND COMPLIANCE
AND INADEQUATE INTERNAL
                                                                                ISSUES IN DELAWARE JOINT
CONTROLS
                                                                                VENTURE PROJECT
In May 2002, NIST awarded an ATP cooperative agreement to a
New York information technology firm to develop an e-mail pro-                  A joint venture is conducting a $5.4 million ATP project to de-
gram for secure data transfer as an alternative to web-based secu-              velop new, more efficient technologies for purifying natural gas.
rity architectures. The 3-year award, which will run through June               Federal funding for the 48-month project is limited to $2.7 mil-
2005, has total estimated costs of $2.1 million, including $99,053              lion (49.9 percent) of allowable costs, and the award period is
in direct and indirect costs to be absorbed by the recipient. The               November 2000 through October 2004.
federal government’s share is not to exceed $2.0 million of allow-
able direct costs.                                                              We conducted an audit of $3,054,875 in costs claimed by the joint
                                                                                venture from the project’s inception through June 2003. We also
For the period July 1, 2002, through December 31, 2003, the re-                 assessed the joint venture administrator’s accounting and finan-
cipient submitted project costs of $943,223 to NIST, which in-                  cial management systems and compliance with ATP award terms
cluded $482,609 in subcontractor expenses. Federal disbursements                and conditions.
as of that date were $952,500.
                                                                                Our audit disclosed $15,565 of questioned costs for materials and
We conducted an interim financial audit to determine the                        supplies that were used for research activities not attributable to
allowability of the claimed costs and to assess the firm’s compli-              the NIST project, and a $100 overcharge in a reimbursement claim
ance with federal regulations and ATP award terms and condi-                    for equipment that was purchased for the project. In addition,
tions.                                                                          (1) the joint venture did not have an approved indirect cost rate,
                                                                                yet had charged $267,881 in indirect costs; and (2) subcontract
We questioned $27,801 in unsupported subcontractor costs—the                    agreements did not specify the obligation of subcontractors to
difference between the subcontractor’s expense reports (which                   adhere to federal laws and regulations in project-related work.
documented costs of $454,808) and the amount billed to NIST by
the recipient ($482,609). We recommended that NIST disallow                     We recommended that NIST disallow questioned costs of $15,665
questioned costs and recover a total of $37,533 in excess federal               and recover the federal share of $7,816. We further advised that—
disbursements, based on the following calculations:                             should the administrator fail to obtain an indirect cost rate and
                                                                                amend subcontract agreements—NIST should disallow all related
                                                                                costs as well. (Denver Regional Office of Audits: DEN-16651)
   Direct costs claimed ........................................... $ 942,768
   Less questioned costs ............................................. 27,801
   Direct costs accepted ............................................ 914,967

   Federal funds disbursed ..................................... $ 952,500
   Less accepted costs .............................................. 914,967
   Amount due to NIST                                                 $37,533




36                                                                                         U.S. Department of Commerce/Office of Inspector General
                                                                                                                Technology Administration




NEW DEPARTMENTAL                                                      As a result of its internal assessment, NIST revised its policies
                                                                      and procedures for handling reimbursable agreements. We believe
GUIDANCE AND NIST SELF-                                               the revised guidance, in conjunction with the Department’s new
ASSESSMENT ADDRESS OIG                                                guidance, will address our concerns. (Business and Science Divi-
CONCERNS ABOUT                                                        sion: STD-14439)
REIMBURSABLE
AGREEMENTS
                                                                      AUDITS UNRESOLVED FOR
Federal agencies’ management of interagency agreements and
other intragovernmental transactions has been historically prob-      MORE THAN 6 MONTHS
lematic, prompting GAO to classify accounting for such transac-
tions as a material weakness in FY 2001 and FY 2002. The Na-          MASSACHUSETTS MEP
tional Institute of Standards and Technology relies heavily on such
agreements for operating revenue: in FY 2002, for example, more       Our March 2004 Semiannual Report (page 36) detailed an audit
than a quarter of the $405.5 million in federal funding received by   of an MEP cooperative agreement as being unresolved for more
NIST laboratories came from other federal agencies; the balance       than 6 months. Our audit had recommended that NIST disallow
was from direct appropriations.                                       questioned costs of $8,177,606, recover the federal share of
                                                                      $1,599,349, and require the recipient to implement improvements
We initiated an audit to determine whether NIST was properly          to its financial reporting system. After detailed analyses of NIST’s
recording and recovering costs of its reimbursable work. How-         audit resolution proposal and other documents provided by NIST
ever, during our review the Department issued draft guidance ad-      and the recipient, we advised NIST of our substantial nonconcur-
dressing known problems with the administration of reimburs-          rence with its audit resolution proposal. We continue to work with
able agreements and NIST completed its own internal assessment,       NIST to resolve our differences.
which made recommendations for resolving issues similar to those
we were identifying. We therefore suspended our audit and re-         TEXAS MEP
ported the problems we had noted thus far, for NIST’s use in imple-
menting corrective actions.                                           Our March 2004 issue (page 36) also reported another MEP co-
                                                                      operative agreement audit as being unresolved for more than
We reviewed 30 interagency agreements active in FY 2002. How-         6 months. Our audit had recommended that NIST disallow ques-
ever, we could not determine whether NIST was recovering full         tioned costs of $1,954,279 and recover $771,555 in resulting ex-
costs on any of them because the agency was not properly record-      cessive disbursements. We also found that elimination of ques-
ing and tracking related program and cost data, and could not pro-    tionable items from subsequent financial reports would result in
vide adequate documentation of agreements, including proposals        $3,360,000 being put to better use during the remainder of the
and statements of work. In the absence of information on work         cooperative agreement period. We have not responded to NIST’s
required, work performed, and the total amount spent, external        audit resolution proposal, pending the outcome of our work with
reviewers and NIST managers cannot assess whether full costs          NIST in resolving our audit of the Massachusetts MEP, described
are being recovered. We also found that, contrary to NIST guid-       above, which has similar outstanding issues.
ance, some agreements had been approved without statements of
work and none showed evidence of legal review.




September 2004/Semiannual Report to Congress                                                                                        37
                      UNITED STATES PATENT AND
                      TRADEMARK OFFICE

                           PATENT EXAMINER GOALS AND PERFORMANCE
                             APPRAISAL SYSTEM ARE OUTDATED

   T
           he
           United                    Patent examination is a labor-intensive process: individual examiners compare an applicant’s
           States Patent               claimed invention against statutory requirements and prior art (previous patents, databases, or
   and Trademark Office                  journals) to determine whether the invention is indeed new and warrants a patent. The process
   administers the nation’s                over the years has changed as examination tools and technologies have advanced. At the
   patent and trademark laws.               same time, emerging technologies have dramatically increased the number of patent appli-
   Patents are granted and                   cations, further straining an already overburdened patent processing system: for example,
   trademarks registered under a              patent application filings since 1998 have risen by 39 percent. In fiscal year 2003, USPTO
   system intended to provide                 received 333,452 new applications, on top of the 362,612 applications already backlogged.
   incentives to invent, invest in
   research, commercialize new                 USPTO’s 21st Century Strategic Plan offers a
   technology, and draw attention to           blueprint for overhauling its patent and trademark      USPTO’s patent corps has
   inventions that would otherwise             processes to boost productivity, substantially re-      8 technology centers that
   go unnoticed. USPTO also                                                                            process patents. Together, the
                                              duce the backlog of applications, and grant pat-         centers have 271 art units,
   collects, assembles, publishes,            ents of the highest quality (as measured by their        each with a staff of examiners
   and disseminates technological            legal patentability and other criteria). It proposes a    that specializes in a unique
   information disclosed in                variety of initiatives, including expanding automated       technology, scientific method,
   patents.                               processing (e-government), sharing search results with       or classification.
                                        foreign patent offices, improving quality assurance, and
                                     outsourcing patent searches. However, GAO reports that
                                  such initiatives can take years to implement, and USPTO recognizes that it must pursue improved
                                productivity through available means—production goals, performance plans, and incentive awards, as
                             appropriate.

                      During this semiannual period, OIG completed a comprehensive review of USPTO’s production goals, perfor-
          mance appraisal plans, and employee awards to assess their impact on the output of the patent examiner corps. Our key
findings are as follows:

PATENT EXAMINER GOALS HAVE NOT CHANGED SINCE 1976,
DESPITE ENHANCED WORK PROCESSES AND IMPROVED TECHNOLOGY

We found that examiner production goals have not been reevaluated in light of the efficiencies in work processes and improvements in
technology that have occurred over the years. Our review of fiscal year 1999-2003 production statistics reported by seven of USPTO’s
eight patent technology centers revealed that all seven processed applications in less time than allotted, suggesting that examiner
production goals may be too easily obtainable. Examiners told us that they could do more work, but there is no incentive for producing
more. We recommended that USPTO reevaluate current patent examiner goals and consider revising them to reflect efficiencies in and
changes to work processes resulting from automation and other enhancements.

PATENT EXAMINER PERFORMANCE APPRAISAL PLANS ARE
NOT LINKED TO MANAGEMENT AND AGENCY GOALS

The American Inventors Protection Act of 1999 establishes specific time frames within which USPTO should complete each major step
of the application review process. USPTO also sets goals of its own, which are more aggressive than those of the act. However, examiner




38                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                  United States Patent and Trademark Office




                       USPTO’S ACTUAL AND ESTIMATED PATENT PRODUCTION
                                  FOR FISCAL YEARS 1998-2009




appraisal plans do not link an individual’s performance to agency      aminers ever qualify for this award. We recommended that USPTO
goals. Rather, examiners can set their own annual production goals     evaluate its current patent examiner award system to determine
according to the awards they want to receive.                          whether there is a more effective and efficient way to stimulate
                                                                       increased production.
We noted that USPTO recently proposed revisions in appraisal
plans for GS-13 and -14 trademark attorneys so as to align their       AGENCY RESPONSE
productivity goals with overall agency objectives for trademark
output. However, implementation of these changes is pending third-     UPSTO concurred with our three recommendations, agreeing to
party arbitration with its union. We believe USPTO should con-         reassess patent examiner goals, performance appraisal plans, and
sider similarly revising performance plans for patent examiners,       the awards system, and the effectiveness of these measures in
linking them to agency goals for production and overall pendency,      achieving the objectives of its 21st Century Strategic Plan. (Office
as well as to measures of examiners’ success at processing appli-      of Inspections and Program Evaluations: IPE-15722)
cations within specified time periods.

AWARD SYSTEM IS NOT
WELL STRUCTURED                                                        MOVE TO NEW
USPTO offers examiners three cash incentives—gain sharing,             HEADQUARTERS COMPLEX
special achievement, and pendency reduction awards—all of which        IS ON TRACK, BUT
are tied to examiners’ production or workflow management. We
found the gain sharing and special achievement awards—both of          ADDITIONAL SPACE NEEDS
which require examiners to attain 110 percent or better of their       MUST BE ADDRESSED
production goals for specified periods—offer little incentive to
aim higher: while most examiners achieve the 110 percent, few          In December 2003, USPTO began its planned move of personnel
obtain the higher level awards that are offered at 120 percent and     and equipment from 18 buildings in Crystal City, Virginia, to 5
130 percent of their production goals. Examiners reported that         newly constructed buildings in Alexandria, Virginia. When the
the potential reward is not worth the extra effort.                    move is completed in 2005, the agency will have relocated ap-
                                                                       proximately 7,350 employees and contractors to the new site—
Eligibility for the pendency reduction award is tied to, among other   the culmination of a long and rigorous process to replace the 33
things, the workflow management element of examiners’ appraisal        Crystal City leases with a single comprehensive lease agreement
plans, but this element has only a marginal impact on the duration     and a modern, consolidated campus. USPTO expects the consolida-
of pendency. Again, examiners told us that the payout is minimal       tion will improve work processes, security, and employee ameni-
in comparison with the additional work required. Hence, few ex-        ties; and over the next 20 years, will shave approximately



September 2004/Semiannual Report to Congress                                                                                         39
United States Patent and Trademark Office




$72.4 million from its current space costs. The complex is being            into the remaining three buildings and nearby townhouse offices
built for GSA by a private developer, and USPTO will occupy it              in late 2004 and early 2005, thus occupying all newly leased space.
under an operating lease with GSA.                                          However, it needs to find space for 100 employees still in Crystal
                                                                            City and for the 650 new employees it hopes to hire in fiscal year
During this period, OIG evaluated USPTO’s efforts thus far to               2006. We recommended that USPTO determine its future space
monitor construction and execute the relocation.                            needs and submit the appropriate documentation to GSA to ob-
                                                                            tain the additional space needed for employees and contractors
OUR FINDINGS                                                                who cannot be accommodated at the new complex.


USPTO HAS ADEQUATELY MANAGED THE                                            AGENCY RESPONSE
PROJECT AND BUDGET, BUT ADDITIONAL
COSTS HAVE BEEN INCURRED                                                    USPTO concurred with our two recommendations, agreeing to
                                                                            proceed toward finalizing an occupancy agreement with GSA and
Both USPTO and GSA are adequately managing the project, in-                 to submit the required documentation for additional space to ac-
cluding providing sufficient oversight of construction and lease            commodate future staff growth. (Office of Inspections and Pro-
costs. Though overall project costs have risen from an initial esti-        gram Evaluations: IPE-16268)
mate of $223 million to $251.5 million,10 most of the increase is
due to project delays beyond USPTO’s control as well as to modi-
fications, such as building redesign to comply with city require-
ments, information technology changes, and security upgrades.
To help cover the extra expenses, GSA added $9.93 million to                USPTO NEEDS TO CLARIFY
USPTO’s above standard build-out allowance, which will be am-               ITS RELATIONSHIP WITH
ortized over the 20-year lease period.                                      OPM AND ESTABLISH
USPTO AND GSA NEED TO FINALIZE AN
                                                                            ADEQUATE HR POLICIES AND
OCCUPANCY AGREEMENT                                                         PROCEDURES
Because the buildings are being completed and accepted ahead of             Allegations that USPTO used improper hiring practices to re-
schedule, GSA has sought $6 million from USPTO in additional                cruit for a new human resources director and a related request
rent for fiscal years 2004 and 2005. In September 2004, USPTO               for review from USPTO’s chief financial/chief administrative
agreed to pay GSA $3.3 million, an amount based on the lost Crys-           officer prompted our audit of that recruitment effort. As we
tal City rent that GSA had expected to collect from USPTO had               sought to determine the validity of the complaints, we also at-
the new buildings been delivered on schedule. This settlement of            tempted to identify systemic weaknesses that might be foster-
the rent dispute should allow the two agencies to finalize the long-        ing problems.
delayed, federally required occupancy agreement for the new head-
quarters complex. We recommended that USPTO sign an agree-                  USPTO suspended the recruitment effort, pending the outcome
ment with GSA as soon as possible to document each agency’s                 of our audit. We ultimately determined that the hiring process for
financial, management, and operational responsibilities for the new         this position was flawed and that USPTO does not have sufficient
buildings.                                                                  HR policies and procedures in place to guide its personnel func-
                                                                            tion. In light of these and other findings, we questioned the agency’s
USPTO NEEDS TO PLAN FOR                                                     ability to ensure adherence to merit system principles.
FUTURE GROWTH
                                                                            SUMMARY OF FINDINGS
The agency moved 2,093 employees to the first two completed
buildings in early 2004, and anticipates moving 5,257 workers               The Patent and Trademark Office Efficiency Act of 1999 granted
                                                                            USPTO independent control of its personnel function, which in-
10
   The original budget of $223 million, established in 1995, consists of    cludes developing and administering personnel management poli-
$88 million in standard building costs amortized in USPTO’s rent plus       cies and programs. We found that USPTO had not obtained del-
$135 million for build-out, transition, and moving costs. Current esti-     egated examining authority from the Office of Personnel Man-
mated costs of $251.5 million represent $98 million in standard building    agement (OPM)—a prerequisite for filling federal jobs with
costs amortized in USPTO’s rent plus $153.5 million of build-out, transi-   nonfederal applicants—contending that, under the Efficiency Act,
tion, and moving costs.                                                     this authority had been transferred to it from the Department.




40                                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                                      United States Patent and Trademark Office




Further, when we asked for copies of the policies and procedures           director’s position was reclassified from human resources man-
used to carry out HR responsibilities at the agency, USPTO offi-           agement to miscellaneous administration prior to the recruitment
cials stated that they relied on departmental policies and proce-          effort. Outside classification experts we consulted indicated that
dures,11 Title 5 of the United States Code, and “some of their own”        the position, as described, should have remained in the human
guidance. During our review, we did identify some USPTO-spe-               resources occupational series.
cific HR policies and procedures, such as the telework policy and
the merit assignment program. However, we found that USPTO                 RECOMMENDATIONS AND
had not completed agency administrative orders, organizational
descriptions for aspects of HR operations, and other standard op-
                                                                           AGENCY RESPONSE
erating procedures that would provide the basis for management             We advised USPTO to promptly create an effective Office of Hu-
actions. Given that USPTO anticipates hiring hundreds of new               man Resources with strong leadership that implements manage-
examiners in a very short time frame, it is essential that the appro-      ment controls to ensure it adheres to merit system principles, seeks
priate hiring policies and procedures be in place and understood           delegated examining authority from OPM, and establishes sound
by all involved.                                                           HR policies and procedures to guide its operations and decision
                                                                           making.
Title 5 requires that agencies classify and assign grades to posi-
tions under their jurisdiction according to standards set by OPM.          USPTO was generally receptive to our findings and recommen-
These standards link job definitions to specific work functions            dations. It has, for example, been working with OPM to recruit
and responsibilities, thereby providing the basis for assigning a          and hire a new HR director, and taken a number of other positive
title, series, and grade to each position. We found that the HR            steps to address some of the conditions that have contributed to its
                                                                           HR problems over the years. These include hiring a contractor to
                                                                           assess its Office of Human Resources organization and staff, and
11
  Prior to enactment of the Efficiency Act, the Department had oversight   to develop short- and long-term improvement strategies. (Busi-
responsibility for USPTO’s HR operations.                                  ness and Science Division: BTD-16432)




September 2004/Semiannual Report to Congress                                                                                             41
                        DEPARTMENT-WIDE
                        MANAGEMENT

                              DEPARTMENT-WIDE FISMA REVIEWS
                                 DOCUMENT IT SECURITY IMPROVEMENTS

    T
            he
            United States          AND PERSISTENT WEAKNESSES
            Department
    of Commerce promotes job                Our FY 2004 independent evaluation of Commerce’s information security program, as
    creation and improved living               mandated by the Federal Information Security Management Act, looked at a total of
    standards for all Americans by              24 systems and 5 programs in place at various bureaus and at the Department level.
    creating infrastructure that fosters          Among our primary areas of focus were the status of (1) system certifications
    economic growth, technological                  and accreditations (C&As), (2) incident response, and (3) efforts to include
    competitiveness, and sustainable                 security provisions in IT service contracts. Overall, we documented contin-
    growth. The Department has three                  ued improvements in the security status of critical IT systems and contract
    strategic goals:                                    documents as well as progress in the Department’s efforts to implement an
                                                         effective incident response capability. However, in each area we also noted
                                                          weaknesses of varying severity that, until resolved, leave the security of
    Goal 1: Provide the information and the                Commerce IT systems and data at risk. The details of our three Depart-
    framework to enable the economy to operate             ment-wide FISMA reports follow. (See page 23 for the results of our
    efficiently and equitably.                              Census FISMA evaluations.)

    Goal 2: Provide the infrastructure innovation                Certification and Accreditation
    to enhance American competitiveness.
                                                                 Problems Still Constitute a
    Goal 3: Observe and manage the Earth’s                       Material Weakness
    environment to promote sustainable growth.
                                                                Commerce has complied with the requirements of FISMA in many areas.
    The Department has also established a                      For example, it requires operating units to obtain the Department CIO’s
    Management Integration Goal that is equally               review and approval of all major IT investments; it regularly updates its
    important to all bureaus: Strengthen                     inventory of major systems; it has established a process for documenting
    management at all levels.                              known IT security weaknesses; and it provides security awareness training to
                                                          virtually all employees.

                                                       However, in the critical area of certification and accreditation, we noted serious
                                                    and persistent weaknesses. Our review of C&A documentation for 21 systems (not
                                                 including USPTO’s) deemed national critical (part of the critical infrastructure) and
                                               mission critical identified deficiencies in risk assessments, security plans, and testing and
                                          evaluation of security controls. Specifically, (1) 10 had risk assessments that do not suffi-
                                      ciently identify threats and vulnerabilities; (2) 8 had security plans that do not adequately describe
                                  the system environment, interconnections, or sensitivity of the data being processed; (3) 18 did not
                             provide evidence that certification assessment and testing were adequate to ensure that security controls are
                    implemented properly and functioning as intended; and (4) 5 did not have contingency plans that are complete and
        provide adequate recovery procedures. We also noted that weaknesses documented in the C&A materials for 15 systems were
not included in plans of action and milestones—the Department’s primary tool for tracking the status and resolution of vulnerabilities.

We found many of these same shortcomings in our FY 2003 review and advised the Department to report information security as a
material weakness under the Federal Managers’ Financial Integrity Act, which it has done since 2001. Because these deficiencies
persist, we believe information security remains a material weakness and should be reported as such again this year.




42                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                                Department-wide Management




USPTO’S MATERIAL WEAKNESS RESOLVED                                        appropriate security provisions; (2) implement procedures to
                                                                          strengthen communication among contracting officers, contract-
Beginning in FY 2003 we incorporated our review of USPTO’s                ing officer’s technical representatives, and information security
IT security program into our Commerce-wide review, in keeping             staff to foster consistent integration of security in IT contracts;
with OMB’s consolidation of the two in its annual report to Con-          and (3) establish procedures and accountability for reviewing con-
gress on federal information security reform. We noted in our FY          tractor compliance with security procedures and controls.
2003 FISMA report that USPTO was using a disciplined C&A
process that provided rigorous testing of security controls. But          The Department agreed with our recommendations and is taking
because it was unable to certify and accredit all mission-critical        steps to implement them. (Office of Systems Evaluation: OSE-16513)
systems by fiscal year-end, the bureau—at our recommendation—
reported IT security as a material weakness. Our review of its
status this year found that USPTO has completed certifying and            Weaknesses Noted in
accrediting all systems using this same disciplined approach. We          Commerce’s Computer Incident
therefore consider its material weakness resolved. (Office of Sys-
tems Evaluation: OSE-16954)
                                                                          Response Capability
                                                                          Commerce’s information security policy requires all operating units
Information Security in IT Service                                        to have a computer incident response capability (CIRC), defined as
                                                                          a set of formal mechanisms and procedures that allow an organiza-
Contracts Is Improving, but                                               tion to react quickly, decisively, and consistently when an incident
Additional Efforts Are Needed                                             occurs. Any operating unit personnel may perform CIRC duties as
                                                                          needed. A unit may also establish its own computer incident re-
In our September 2002 Semiannual Report to Congress (page 51),            sponse team (CIRT) that formally monitors IT intrusions and handles
we reported the results of our review of security provisions con-         incidents and associated reporting. An operating unit that does not
tained in a sample of the Department’s IT service contracts: most of
the 40 contracts we examined had either insufficient security provi-
sions or none at all, and we concluded that federal and departmental
policy and guidance for incorporating such provisions were lacking.          REPORTABLE IT SECURITY INCIDENTS

We followed up in FY 2003 by assessing the Department’s new                 The Department’s policy defines a reportable incident as
security policy, issued at our recommendation, and reported that            any act that violates an explicit or implied security policy
                                                                            within the Department or its operating units. It further states
it contained appropriate requirements for contractors and other
                                                                            that an incident is any adverse event that threatens the
government agencies that support Commerce in the IT services                security of information resources. The policy states that
area (see September 2003 Semiannual Report to Congress, page                incidents may include but are not limited to the events
37). The Department had also drafted standard contract security             described below.
provisions for safeguarding sensitive but unclassified systems in-
volving contractor connections to Commerce networks or storage              Event                    Description
of Commerce data on contractor-owned systems.12 However, the                Compromise               A virus infects a system or
contract actions we reviewed still lacked adequate provisions for           of integrity             network.
controlling access. We also found little coordination among the             Denial of                An attacker has disabled a
contracting, technical, and security staff responsible for develop-         service attack           system or a network worm has
ing contract-specific security requirements and minimal oversight                                    used all available network
of contractors’ compliance with those requirements.                                                  bandwidth.
                                                                            Loss of                  An intruder or insider uses an
During the intervening year, the contract clauses have been final-
                                                                            accountability/          account or a system for unau-
ized and their use mandated. In light of these events, we revisited         misuse                   thorized or illegal purposes.
the issues we identified in our FY 2003 assessment and recom-
mended that—to further ensure that information and information              Damage to any            A virus or disgruntled employee
systems are adequately secure when contractor-provided services             part of the system       destroys data.
are used—the Department should (1) periodically review a sample             Compromise of            An unauthorized outsider gains
of contracts in each operating unit to confirm that they contain the        confidentiality/         access to your IT resources.
                                                                            intrusion

12
  At the time of our fiscal year 2003 FISMA report, the contract provi-   Source: IT Security Program Policy and Minimum Implementation
sion was under departmental review. It was finalized in November 2003.    Standards, U.S. Department of Commerce, January 24, 2003.



September 2004/Semiannual Report to Congress                                                                                             43
Department-wide Management




have its own CIRT receives support from the Department of Com-         Response Center (FedCIRC). However, the operating units report
merce CIRT, which resides in the Office of the Secretary.              few detected incidents, partly because some units are unfamiliar
                                                                       with the Department’s reporting requirements, and the Depart-
We assessed the Department’s computer incident response capa-          ment has not enforced them.
bility with a focus on its organizational structure, roles and re-
sponsibilities, and operating unit procedures for identifying, ana-    SYSTEMS AND IT SECURITY STAFF NEED
lyzing, responding to, and reporting incidents. Overall, we found      BETTER INTRUSION DETECTION
that the structure—in allowing units to either formalize their own     APPROACHES, TOOLS, AND TRAINING
response capability or rely on the Department’s—is appropriate
for Commerce’s decentralized organization but lacks a means to         Intrusion detection systems and regular reviews of network logs
give the Department CIO a Commerce-wide view of vulnerabili-           facilitate incident prevention and detection. However, we found
ties and threats. As such, it may be undercutting the efficiency       instances in which (1) log information was reviewed too infre-
and effectiveness of incident response throughout Commerce. Our        quently or not at all, and (2) large quantities of data were exam-
specific findings are as follows:                                      ined visually rather than via automated tools. Commerce person-
                                                                       nel who are responsible for responding to incidents and reviewing
A MECHANISM FOR COORDINATING                                           log information receive some specialized security training, but it
INCIDENT RESPONSE ACROSS                                               is not systematic and does not ensure that staff members have the
COMMERCE IS NEEDED                                                     requisite knowledge and skills.

NIST guidance on computer security incident handling points out        OIG RECOMMENDATIONS AND
that distributed teams should be part of a single centralized entity   AGENCY RESPONSE
so that the incident response process is consistent across the orga-
nization and information is shared among teams. The Department         We recommended, among other things, that the Department CIO
CIO intended to establish a “CIRT federation” to support coordi-       define and implement an approach for establishing coordination
nation and communication by July 2002, but had not done so at          and communication among the distributed incident response teams,
the time of our review. Thus, coordination and communication           develop and enforce a formal process through which operating
regarding incident prevention and response do not occur system-        units promptly report incidents to both Commerce and FedCIRC,
atically, and the CIO’s ability to have an accurate Commerce-wide      enforce Department policy for reviewing systems activity logs,
view of incidents and capabilities is hampered.                        and ensure operating unit personnel have the appropriate auto-
                                                                       mated tools and training needed to effectively monitor and detect
SOME OPERATING UNITS LACK                                              incidents. The Department concurred with our recommendations
ADEQUATE INCIDENT RESPONSE                                             and described actions that, when implemented, should improve
PROCEDURES AND MOST LACK THE                                           incident detection and response. (Office of Systems Evaluation:
REQUIRED APPROVALS                                                     OSE-16522)

The Department’s policy requires all operating units to have for-
mal response procedures and to submit them to their own CIO
and to the Department for review and approval. Four of the 10          INVESTIGATIONS
operating units we reviewed—including the Office of the Secre-
tary, which houses the Department’s CIRT—did not have proce-
dures that were complete enough to support effective incident re-      Former Commerce Employee
sponse, 6 had not received their CIO’s approval for their proce-       Convicted and Sentenced
dures, and only 1 had procedures approved by the Department            for Theft
CIO’s office.
                                                                       In our March 2004 Semiannual Report (page 43), we reported
BUREAUS’ INCIDENT REPORTING IS                                         that a timekeeper in the Office of the Secretary was indicted for
INCOMPLETE AND INCONSISTENT                                            fraud and theft in Superior Court for the District of Columbia for
                                                                       obtaining approximately $3,300 by claiming overtime hours she
Analyzing reported incidents is an important way for the Depart-       never worked. In May 2004 she pleaded guilty to one count of
ment to gain a better understanding of its threats and vulnerabili-    misdemeanor theft and was sentenced to 180 days’ incarceration.
ties, and, consequently, both FISMA and Department policy re-          The sentence was suspended, conditioned on her completion of
quire that incidents be reported to the Federal Computer Incident      2 years’ probation and payment of $750 in restitution. As part of




44                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                             Department-wide Management




the plea agreement, the individual resigned from her federal posi-            PREAWARD SCREENING RESULTS
tion. (Arlington Resident Office of Investigations)
                                                                                                                      Awards
                                                                          Results                                 Number  Amount
Office of Public Affairs
Employee Convicted and                                                    Awards delayed to resolve concerns        56    $50,639,368
Sentenced for Conflict                                                    Special award conditions established      49    $36,048,786
of Interest
An OIG investigation established that an employee in the Office
of the Secretary’s Office of Public Affairs had used his official       NONFEDERAL AUDIT
position to obtain a government contract for his private produc-        ACTIVITIES
tion company. In April 2004 the individual pleaded guilty to one
felony count of conflict of interest and in July was sentenced to       In addition to undergoing OIG-performed audits, certain recipi-
1 year supervised probation and 100 hours of community service,         ents of Commerce financial assistance are periodically examined
and ordered to pay a $900 fine. The individual resigned his posi-       by state and local government auditors and by independent public
tion with the Department in March 2004 as part of the plea agree-       accountants. OMB Circular A-133, Audits of States, Local Gov-
ment. (Arlington Resident Office of Investigations)                     ernments, and Non-Profit Organizations, sets forth the audit re-
                                                                        quirements for most of these audits. For-profit organizations that
                                                                        receive Advanced Technology Program funds from NIST are au-
                                                                        dited in accordance with Government Auditing Standards and NIST
PREAWARD FINANCIAL                                                      Program-Specific Audit Guidelines for ATP Cooperative Agree-
                                                                        ments, issued by the Department.
ASSISTANCE SCREENING
                                                                        We examined 157 audit reports during this semiannual period to
As part of our ongoing emphasis on prevention of fraud, waste,          determine whether they contained any audit findings related to De-
and abuse, we continue to work with the Office of Acquisition           partment programs. For 96 of these reports, the Department acts as
Management, NOAA and NIST grant offices, and EDA program                oversight agency and monitors the audited entity’s compliance with
offices to screen the Department’s proposed grants and coopera-         the OMB circular or NIST’s program-specific reporting require-
tive agreements before they are awarded. Our screening serves           ments. The other 61 reports are from entities for which other fed-
two functions: it provides information on whether the applicant         eral agencies have oversight responsibility. We identified 22 re-
has unresolved audit findings and recommendations on earlier            ports with findings related to the Department of Commerce.
awards, and it identifies negative financial or investigative history
relating to individuals or organizations connected with a proposed
award.                                                                                                                 ATP
                                                                                                          OMB        Program
On January 1, 2004, we implemented new policies and proce-                                                A-133      -Specific
dures for our preaward screening process. OIG and the Depart-             Report Category                 Audits      Audits      Total
ment determined that there are several categories of recipients for
whom the costs and administrative burden of the screening pro-            Pending (April 1, 2004)            17          61         78
cess may well outweigh the government’s risk of financial loss.           Received                          104          64        168
Our new policies exempt from review, recipients who (1) receive
awards in amounts of $100,000 or less, (2) have received finan-           Examined                          104          53        157
cial assistance from the Department for 3 or more consecutive             Pending (September 30, 2004)       17          72         89
years without any adverse program or audit findings, or (3) are
units of a state or local government.

During this period we screened 426 proposed awards. For 105 of
the awards, we found major deficiencies that could affect the abil-
ity of the prospective recipients to maintain proper control over
federal funds. On the basis of the information we provided, the
Department delayed 56 awards and established special conditions
for 49 awards. (Office of Audits)




September 2004/Semiannual Report to Congress                                                                                        45
Department-wide Management




The following table shows a breakdown, by bureau, of the roughly      Audit Fails to Disclose Conflict
$436 million in Commerce funds audited.                               of Interest in RLF Loan
  Bureau                                                 Funds        Our quality control review of the fiscal year 2003 single audit of a
  EDA                                               $ 28,965,131      southwestern Oklahoma nonprofit organization noted that the
                                                                      public accounting firm—in failing to identify the RLF as a major
  NIST*                                               99,118,235      program and include it in the schedule of expenditures of federal
  NOAA                                                30,240,915      awards—did not report and question a substantial loan made to
  NTIA                                                   982,280      the son of a member of the recipient’s board of directors. EDA
  Multiagency                                        270,318,103      grant terms and conditions expressly prohibit loans to board mem-
                                                                      bers’ relatives or business associates. This is the fifth consecutive
  Agency not identified                                6,508,000      year in which the CPA firm has failed to conduct an acceptable
  Total                                             $436,132,664      single audit, as it has consistently excluded the RLF from the sched-
                                                                      ule of expenditures and the additional audit procedures required
* Includes $99,118,235 in ATP program-specific audits.
                                                                      of major programs. We recommended that the CPA firm reissue
                                                                      the 2003 single audit report to include the EDA revolving loan
We identified a total of $2,171,730 in questioned costs and           fund as a major program, and question the related-party loan. (Den-
$215,361 in funds to be put to better use. In most reports the sub-   ver Regional Office of Audits: DEN-16870)
ject programs were not considered major programs; thus the au-
dits involved limited transaction and compliance testing against
laws, regulations, and grant terms and conditions. The 22 reports     Inadequate Audits of Central
with Commerce findings are listed in Appendix B-1. (Atlanta and       Oklahoma Organization Span
Denver Regional Offices of Audits)
                                                                      6 Years
                                                                      The fiscal year 2003 single audit conducted for a central Okla-
                                                                      homa economic development organization was technically defi-
QUALITY CONTROL REVIEWS                                               cient because the CPA firm omitted revolving loan fund activity
OF SINGLE AUDITS DISCLOSE                                             of $676,786 in its calculation of federal award expenditures. As a
FAILURES TO MEET FEDERAL                                              result, the RLF was not subject to the additional audit procedures
                                                                      required for major programs. Single audits of the organization
REQUIREMENTS                                                          dating back to 1998 have not reflected RLF activity in the sched-
                                                                      ule of expenditures of federal awards, and have hence failed to
The Single Audit Act requires that state and local governments        meet A-133 standards. (Denver Regional Office of Audits: DEN-
and nonprofit organizations expending $500,000 or more in fed-        16871)
eral financial assistance in a single year be audited in accordance
with the act and its implementing regulations, OMB Circular A-
133. Single audits are generally conducted by either state audit      Two Iowa CPA Firms Failed to
agencies or private certified public accounting firms and play an     Comply with Single Audit Act
integral role in the government’s efforts to provide oversight and
ensure accountability for federal assistance funds. As the audit      for Multiple Years
oversight agency for the Department of Commerce, we conduct
quality control reviews (QCRs) of selected single audits performed    Southern Iowa. Our QCR of a public accounting firm’s fiscal
on organizations that receive most of their funding from the De-      year 2002 audit of an EDA grantee in Iowa found that, while the
partment. The objective of a QCR is to determine whether the          firm had conducted audits according to generally accepted audit-
nonfederal audit was conducted in accordance with Government          ing standards, they did not meet Single Audit Act and A-133 re-
Auditing Standards and A-133.                                         quirements, which prescribe additional procedures to (1) assess
                                                                      the adequacy of internal controls over federal funds and (2) sub-
During this semiannual period, we conducted quality control re-       stantively test the support for costs charged to major federal pro-
views of four single audit engagements for organizations that ad-     grams. The firm failed to perform any of the required procedures
minister EDA revolving loan funds, as RLFs are particularly vul-      as part of its FY 2002 audit, and has not done so in any audit of
nerable to fraud, waste, and abuse. In each case, we found the        the organization since 1997. (Denver Regional Office of Audits:
single audits had not been properly conducted for 5 or more years.    DEN-16583)
Summaries of our findings for the QCRs follow.




46                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                         Department-wide Management




South Central Iowa. Our QCR of the FY 2003 single audit re-          and did not test the RLF as a major program. We also determined
port for a south central Iowa planning commission disclosed that     that—as the auditors had not included the RLF in the schedule of
the public accounting firm conducting the audit had not included     expenditures since 1998—the EDA recipient did not obtain an
RLF activity in its calculation of the commission’s federal expen-   acceptable single audit between 1998 and 2002. (Denver Regional
ditures. By failing to include the RLF, the firm did not properly    Office of Audits: DEN-16584)
prepare and present the schedule of expenditures of federal awards




September 2004/Semiannual Report to Congress                                                                                    47
                                 OFFICE OF INSPECTOR
                                 GENERAL

                               OIG CONDUCTS QUALITY ASSESSMENT
                                 REVIEW OF TENNESSEE VALLEY AUTHORITY

   T
           The
           mission of
                                    OIG OFFICE OF INVESTIGATIONS
           the Office of
                                              All OIGs granted statutory law enforcement authority under the Homeland Security Act
   Inspector General is to
                                               are required by the Attorney General’s Guidelines for such organizations to participate
   promote economy, efficiency,
                                                  in a regular program of quality assessment review. Pursuant to this program, the
   and effectiveness and detect and
                                                    investigative operations of each OIG are subject to a peer review by a fellow OIG
   prevent waste, fraud, abuse, and
                                                      every 3 years. The purpose of the review is to ascertain whether adequate internal
   mismanagement in the programs and
                                                       safeguards and management procedures exist to ensure that the law enforcement
   operations of the U.S. Department of
                                                        power conferred by the 2002 amendments to the Inspector General Act are prop-
   Commerce. Through its audits,
                                                        erly exercised. The results of these reviews are communicated to the Attorney
   inspections, performance evaluations, and
                                                         General and the reviewed OIG, and are intended to ensure compliance with
   investigations, OIG proposes innovative
                                                         applicable guidelines established by the President’s Council on Integrity and
   ideas and constructive solutions that lead
                                                         Efficiency and the Attorney General, as well as to facilitate substantive com-
   to positive changes for the Department.
                                                         munications within the OIG investigative community regarding efficient pro-
   By providing timely, useful, and reliable
                                                         cedures and best practices.
   information and advice to departmental
   officials, the administration, and
                                                        During this reporting period, we conducted a quality assessment review of the
   Congress, OIG’s work helps improve
                                                        Tennessee Valley Authority (TVA) Office of Inspector General and concluded
   Commerce management and operations
                                                       that TVA’s Office of Investigations was in full compliance with established guide-
   as well as its delivery of services to
                                                     lines. We based our findings on an assessment of that OIG’s compliance with its
   the public.
                                                    own system of internal policies and procedures, interviews with criminal investiga-
                                                  tors and administrative and management personnel, and evaluation of investigations
                                               completed by the OIG during the 12-month period ending February 1, 2004.




                                     INVESTIGATIVE ACTIVITIES
                            In addition to the bureau-related investigations detailed throughout this semiannual report, our Office of
                     Investigations assisted other OIGs and law enforcement agencies with the following two operations:

CENSUS EMPLOYEE AND SPOUSE ARRESTED FOR DEFRAUDING THE GOVERNMENT;
GUILTY PLEA FOLLOWS

A Census employee and her spouse were arrested in June 2004 by special agents from the Commerce OIG and the Department of
Agriculture (USDA) OIG in connection with a fraud investigation initiated by USDA OIG. The employee, arrested at Census headquar-
ters, was charged with attempting to defraud the government of approximately $39,000, after an investigation found that she had falsely
reported the amount of income she received as a Commerce employee in order to qualify for and receive food stamps and child care
benefits from USDA and the Department of Housing and Urban Development. In September 2004, the employee pleaded guilty in U.S.
District Court for the District of Maryland to one felony count of theft. Sentencing is set for December 2004. The employee’s spouse
is scheduled for trial in November 2004. This is a joint investigation with USDA OIG. (Washington Field Office of Investigations)




48                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                              Office of Inspector General




FUGITIVE DETAINED DURING FRAUD                                        more than $20,000 from a private business. Special agents located
INVESTIGATION                                                         and detained the individual in Mesa, Arizona. With their assis-
                                                                      tance, the Mesa Police Department arrested the individual and
In August 2004, while conducting a fraud investigation, special       charged her with multiple state felonies, including 25 counts of
agents learned that the subject of their investigation was also the   forgery, 2 counts of identity theft, and 1 count of embezzlement.
subject of numerous investigations in Arizona and was a known         (Arlington Resident Office of Investigations)
fugitive, wanted in Michigan since December 2001 for stealing




September 2004/Semiannual Report to Congress                                                                                       49
TABLES AND STATISTICS


STATISTICAL OVERVIEW
 TABLES                                                                                                                                                                              PAGE

 1. Investigative Statistical Highlights for this Period ...................................................................................................................... 50
 2. Audit Resolution Follow-Up ....................................................................................................................................................... 51
 3. Audit and Inspection Statistical Highlights for this Period ......................................................................................................... 51
 4. Audits with Questioned Costs ..................................................................................................................................................... 51
 5. Audits with Recommendations that Funds Be Put to Better Use ................................................................................................ 52

 APPENDIXES

 A. Report Types this Period ............................................................................................................................................................ 52
     A-1. Performance Audits ............................................................................................................................................................ 53
     A-2. Financial Assistance Audits ............................................................................................................................................... 54
     A-3. Quality Control Reviews .................................................................................................................................................... 55
     A-4. Inspections and Systems Evaluations ................................................................................................................................ 56
 B. Processed Reports ...................................................................................................................................................................... 57
     B-1. Processed Reports with Audit Findings ............................................................................................................................. 58


TABLE 1. INVESTIGATIVE STATISTICAL                                                                 AUDIT RESOLUTION AND
HIGHLIGHTS FOR THIS PERIOD
                                                                                                   FOLLOW-UP
 Allegations Processed
 Accepted for investigation                                                          32            The Inspector General Act Amendments of 1988 require us to
 Referred to operating units                                                         54            present in this report those audits issued before the beginning of
 Evaluated but not accepted for investigation or referral                            11            the reporting period (April 1, 2004) for which no management
 TOTAL                                                                               97            decision had been made by the end of the period (September 30,
                                                                                                   2004). Two audit reports remain unresolved for this reporting pe-
 Investigative Activities                                                                          riod (see page 37).
 Matters referred for prosecution                                                    10
 Matters accepted for prosecution                                                    10            Department Administrative Order 213-5, Audit Resolution and
 Arrests                                                                              3            Follow-up, provides procedures for management to request a
 Indictments and informations                                                         5            modification to an approved audit action plan or for a financial
 Convictions                                                                          7            assistance recipient to appeal an audit resolution determination.
 Personnel actions                                                                    5            The following table summarizes modification and appeal activity
 Fines, restitutions, judgments, and other                                                         during the reporting period.
   civil and administrative recoveries                                  $2,598,257




50                                                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                                             Office of Inspector General




TABLE 2. AUDIT RESOLUTION FOLLOW-UP                                            TABLE 3. AUDIT AND INSPECTION
                                                                               STATISTICAL HIGHLIGHTS FOR THIS
    Report Category                       Modifications Appeals                PERIOD


    Actions pending (April 1, 2004)               0               9              Questioned costs                                           $5,436,699

    Submissions                                   0               7              Value of audit recommendations that
    Decisions                                     0               8              funds be put to better use                                  5,484,163

    Actions pending (September 30, 2004)          0               8              Value of audit recommendations
                                                                                 agreed to by management                                    13,715,745

                                                                                 Value of inspection recommendations
                                                                                 that funds be put to better use                                25,000




TABLE 4. AUDITS WITH QUESTIONED COSTS

    Report Category                                                                 Number          Questioned Costs           Unsupported Costs

    A. Reports for which no management decision had been
       made by the beginning of the reporting period                                   31              $10,401,983                   $3,605,407
    B. Reports issued during the reporting period                                      28                 5,436,699                    1,805,765
       Total reports (A+B) requiring a management decision
       during the reporting period1                                                    59                15,838,682                    5,411,172
    C. Reports for which a management decision was made
       during the reporting period2                                                    31                 6,994,367                    3,605,407
       i. Value of disallowed costs                                                                       1,715,266                         623,094
       ii. Value of costs not disallowed                                                                  5,279,178                    2,982,577
    D. Reports for which no management decision had been
       made by the end of the reporting period                                         28                 8,844,315                    1,805,765

1
 Ten audit reports included in this table are also included among reports with recommendations that funds be put to better use (see table 5).
However, the dollar amounts do not overlap.
2
  In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original
recommendations.




September 2004/Semiannual Report to Congress                                                                                                          51
Office of Inspector General




TABLE 5. AUDITS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

     Report Category                                                                                                    Number                    Value


     A. Reports for which no management decision had been made
        by the beginning of the reporting period                                                                               10          $10,000,360

     B. Reports issued during the reporting period                                                                              7             5,484,163

         Total reports (A+B) requiring a management decision during the reporting period1                                      17           15,484,523

     C. Reports for which a management decision was made during the reporting period2                                          10             8,649,918

         i. Value of recommendations agreed to by management                                                                                12,000,479

         ii. Value of recommendations not agreed to by management                                                                               657,058

     D. Reports for which no management decision had been made by the end of the reporting period                               7             6,834,605

1
  Ten audit reports included in this table are also included in the reports with questioned costs (see table 4). However, the dollar amounts do not
overlap.
2
    In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original recommendations.



DEFINITIONS OF TERMS                                                              (5) avoidance of unnecessary expenditures identified in preaward
USED IN THE TABLES                                                                reviews of contracts or grant agreements; or (6) any other savings
                                                                                  specifically identified.
Questioned cost: a cost questioned by OIG because of (1) an
alleged violation of a provision of a law, regulation, contract, grant,           Management decision: management’s evaluation of the findings
cooperative agreement, or other agreement or document govern-                     and recommendations included in the audit report and the issu-
ing the expenditure of funds; (2) a finding that, at the time of the              ance of a final decision by management concerning its response.
audit, such cost is not supported by adequate documentation; or
(3) a finding that an expenditure of funds for the intended purpose               APPENDIX A. REPORT TYPES
is unnecessary or unreasonable.                                                   THIS PERIOD

Unsupported cost: a cost that, at the time of the audit, is not                                                              Number of       Appendix
supported by adequate documentation. Questioned costs include                       Type                                      Reports        Number
unsupported costs.
                                                                                    Performance audits                              5            A-1
Recommendation that funds be put to better use: an OIG rec-
ommendation that funds could be used more efficiently if Com-                       Financial assistance audits                     12           A-2
merce management took action to implement and complete the
                                                                                    Quality control reviews                         4            A-3
recommendation, including (1) reductions in outlays; (2)
deobligation of funds from programs or operations; (3) withdrawal                   Inspections and systems evaluations             12           A-4
of interest subsidy costs on loans or loan guarantees, insurance,
or bonds; (4) costs not incurred by implementing recommended                        Total                                           33
improvements related to Commerce, a contractor, or a grantee;




52                                                                                            U.S. Department of Commerce/Office of Inspector General
                                                                                             Office of Inspector General




APPENDIX A-1. PERFORMANCE AUDITS

                                                                                                          Funds to
                                                                                                         Be Put to
  Report Title                                                       Report Number     Date Issued       Better Use

  Economic and Statistics Administration


  Results Assessment of Federal Audit Clearinghouse                 ATL-16202-4-0001    05/21/04
  Database Utilizing Agreed-Upon Procedures

  Federal Information Systems Controls Audit Manual Review of the   ATL-16202-4-0002    05/21/04              —
  Federal Audit Clearinghouse Database for Fiscal Year 2003

  National Oceanic and Atmospheric Administration


  Improvements Needed in the Reporting of Performance for           FSD-15989-4-0001    09/07/04              —
  NOAA Goals – Build Sustainable Fisheries, Recover
  Protected Species, and Predict and Assess Decadal to
  Centennial Climate Change

  National Institute of Standards and Technology


  NIST’s Management of Interagency Agreements                       STD-14439-4-0001    09/30/04              —

  United States Patent and Trademark Office


  USPTO Needs Strong Office of Human Resources Management
  Capable of Addressing Current and Future Challenges               BTD-16432-4-0001    06/16/04              —




September 2004/Semiannual Report to Congress                                                                      53
Office of Inspector General




APPENDIX A-2. FINANCIAL ASSISTANCE AUDITS

                                                                                Value of
                                                                                Funds to           Federal          Federal
                                                                Date           Be Put to           Amount           Amount
  Report Title                           Report Number         Issued          Better Use         Questioned      Unsupported

  Economic Development Administration


  Advancing California’s
  Emerging Technologies                 ATL-16838-4-0001       07/15/04        $2,009,558

  Village of Valmeyer, IL              DEN-16837-4-0001        08/25/04         3,156,755

  City of Toledo, OH                   DEN-16511-4-0001        09/30/04                           $1,147,250          $23,044

  National Institute of Standards and Technology


  Umbanet, Inc., NY                    DEN-16591-4-0001        08/18/04                             27,801             27,801

  Computer Aided Surgery, Inc., NY      ATL-16095-4-0002       08/25/04                             547,426

  AviGenics, Inc., GA                   ATL-16672-4-0001       09/30/04          102,489            84,556             16,429

  MEDAL, L.P., DE                       DEN-16651-4-0001       09/30/04                              7,816              7,816

  Animas Corp., PA                     DEN-16669-4-0001        09/30/04                             43,643

  National Oceanic and Atmospheric Administration


  Oregon Watershed Enhancement Board    STL-15727-4-0001       09/30/04                             535,495           454,981

  Northwest Indian Fisheries
  Commission, Audit of the Subgrant
  with the Puyallup Tribe, WA           STL-16657-4-0001       09/30/04                             599,506           599,506

  Northwest Indian Fisheries
  Commission, Audit of Subgrant with
  the Lower Elwha Klallam Tribe, WA     STL-16657-4-0003       09/30/04                             271,476            29,882

  National Telecommunications and Information Administration


  Daytona Beach Community
  College, FL                           ATL 16806-4-0001       09/24/04




54                                                                        U.S. Department of Commerce/Office of Inspector General
                                                                                             Office of Inspector General




APPENDIX A-3. QUALITY CONTROL REVIEWS

  Report Title                                                             Report Number            Date Issued
  Economic Development Administration


  Ted Willets CPA for the Audit of Southern Iowa Council of Governments
  for the year ended September 30, 2002                                   DEN-16853-4-0001            09/22/04

  Peak & Gerdes, LLP, for the Audit of Area 15 Regional Planning
  Commission for the year ended June 30, 2003                             DEN-16854-4-0001            09/22/04

  Carlson & Cottrell, CPAs PLC, Audit of South Western Oklahoma
  Development Authority for the year ended September 30, 2003             DEN-16870-4-0001            09/30/04

  Becky Fleming, C.P.A., Inc., Audit of Central Oklahoma Economic
  Development District for the year ended June 30, 2003                   DEN-16871-4-0001            09/30/04




September 2004/Semiannual Report to Congress                                                                      55
Office of Inspector General




APPENDIX A-4. INSPECTIONS AND SYSTEMS EVALUATIONS

                                                                                                        Funds to Be
                                                                                                           Put to
  Report Title                                                      Report Number     Date Issued        Better Use

  Bureau of Industry and Security
  Interagency Review of Foreign National Access to
  Export-Controlled Technology in the United States                   IPE-16177        04/16/04              —

  Economics and Statistics Administration

  Improving Our Measure of America: What the 2004
  Census Test Can Teach Us in Planning for the 2010
  Decennial Census                                                    OIG-16949        09/30/04              —
  Weaknesses in Census Bureau’s Certification and
  Accreditation Process Leave Security of Critical
  Information Systems in Question                                    OSE-16519-1       09/28/04              —
  The Census Bureau Should Redefine Its National-Critical Systems    OSE-16519-2       07/30/04              —

  International Trade Administration

  USEACs Are Meeting Client Needs, But Better
  Management Oversight Is Needed                                      IPE-16728        09/30/04              —
  CS India: Challenges Remain for a Large and
  Economically Diverse Post                                           IPE-16808        09/30/04           $25,000

  National Oceanic and Atmospheric Administration

  Complaints Surrounding the Recent Selection of the
  Assistant Administrator for Weather Services                        IPE-16823        04/30/04              —

  United States Patent and Trademark Office

  USPTO Should Reassess How Examiner Goals,
  Performance Appraisal Plans, and the Award System
  Stimulate and Reward Examiner Production                            IPE-15722        09/30/04              —
  USPTO’s Move to Alexandria, Virginia, Is Ahead of
  Schedule, But Some Key Issues Need to Be Resolved                   IPE-16268        09/30/04              —

  Office of the Secretary

  FY 2004 Independent Evaluation of the Department of
  Commerce’s Information Security Program Under the
  Federal Information Security Management Act for FY 2004            OSE-16954         09/30/04              —
  Information Security in Information Technology Service
  Contracts Is Improving, But Additional Efforts Are Needed          OSE-16513         09/29/04              —
  Management Attention Is Needed to Assure Adequate
  Computer Incident Response Capability                              OSE-16522         09/28/04              —




56                                                                       U.S. Department of Commerce/Office of Inspector General
                                                                                                                                                                       Office of Inspector General




APPENDIX B. PROCESSED REPORTS

The Office of Inspector General reviewed and accepted 157 audit reports prepared by independent public accountants and local, state,
and other federal auditors. The reports processed with questioned costs, recommendations that funds be put to better use, and/or nonfi-
nancial recommendations are listed in Appendix B-1.

  Agency                                                                                                                                                                           Audits


  Economic Development Administration ........................................................................................................................................ 43

  National Institute of Standards and Technology* ........................................................................................................................... 60

  National Oceanic and Atmospheric Administration ....................................................................................................................... 15

  National Telecommunications and Information Administration ....................................................................................................... 3

  Multiagency .................................................................................................................................................................................... 35

  Agency not identified ........................................................................................................................................................................ 1

  Total .............................................................................................................................................................................................. 157

*Includes 53 ATP program-specific audits.




September 2004/Semiannual Report to Congress                                                                                                                                                         57
Office of Inspector General




APPENDIX B 1. PROCESSED REPORTS WITH AUDIT FINDINGS

                                                                            Value of
                                                                            Funds to           Federal          Federal
                                                            Date           Be Put to           Amount           Amount
  Report Title                           Report Number     Issued          Better Use         Questioned      Unsupported

  Economic Development Administration

  Cornell Agriculture and Food
  Technology Park Corp., NY             ATL-09999-4-1653   09/13/04                             $12,020          $12,020
  Operation Hope, CA                    ATL-09999-4-1883   09/13/04                             175,662
  National Association of
  Development Organizations
  and NADO Research Foundation, DC      ATL-09999-4-1715   09/14/04                             28,969           17,143
  Northwest Wisconsin Business
  Development Corp.                     ATL-09999-4-1753   09/14/04                             189,374

  National Institute of Standards and Technology

  Allvac, NC                            DEN-09999-4-1485   04/02/04                              4,869
  Palo Alto Research Center, CA         ATL-09999-4-1828   05/12/04                             84,666
  Isogenis, Inc., CO                    DEN-09999-4-1744   06/16/04          107,084            42,491
  IndX Software Corp., CA               ATL-09999-4-1496   06/23/04                             391,317          281,572
  MicroDexterity Systems, Inc., NM      ATL-09999-4-1528   06/23/04                             381,243          335,571
  GlycoFi, Inc., NH                     DEN-09999-4-1808   07/07/04                              4,548
  Baan USA, Inc., VA                    ATL-09999-4-1132   07/08/04                             295,827
  Black Pearls, Inc./Kona Blue
  Water Farms, HI                       ATL-09999-4-1293   08/03/04                             26,747
  Honeywell International, Inc., MN     ATL-09999-4-1967   08/05/04                             29,325
  Apelon, Inc., CT                      ATL-09999-4-1963   08/11/04           40,000            30,148
  ISTO Technologies, Inc., MO           ATL-09999-4-1306   09/10/04           16,419
  Mendel Biotechnology, Inc., CA        ATL-09999-4-1322   09/10/04                             146,300
  Physical Optics Corp., CA             ATL-09999-4-1641   09/10/04                             105,708
  Timken US Corp., MI                   ATL-09999-4-1687   09/10/04                             24,708
  STEP Tools, Inc., NY                  ATL-09999-4-0902   09/13/04           51,858            178,445
  Maine Manufacturing
  Extension Partnership                 ATL-09999-4-1889   09/14/04
  Manufacturing Extension Partnership
  of New Hampshire, Inc.                ATL-09999-4-1854   09/30/04

  National Oceanic and Atmospheric Administration

  Mid-Atlantic Fishery Management
  Council, DE                           ATL-09999-4-1882   09/13/04                             19,363



58                                                                    U.S. Department of Commerce/Office of Inspector General
REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The requirements are listed
below and indexed to the applicable pages of this report.

  Section               Topic       Page


  4(a)(2) ......................................... Review of Legislation and Regulations .............................................................................. 59–60

  5(a)(1) ......................................... Significant Problems, Abuses, and Deficiencies ................................................................. 14–47

  5(a)(2) ......................................... Significant Recommendations for Corrective Action ......................................................... 14–47

  5(a)(3) ......................................... Prior Significant Recommendations Unimplemented .............................................................. 59

  5(a)4 ............................................ Matters Referred to Prosecutive Authorities ............................................................................. 50

  5(a)(5) and 6(b)(2) ...................... Information or Assistance Refused ........................................................................................... 60

  5(a)(6) ......................................... Listing of Audit Reports ..................................................................................................... 50–58

  5(a)(7) ......................................... Summary of Significant Reports ......................................................................................... 14–47

  5(a)(8) ......................................... Audit Reports—Questioned Costs ............................................................................................ 51

  5(a)(9) ......................................... Audit Reports—Funds to Be Put to Better Use ........................................................................ 52

  5(a)(10) ....................................... Prior Audit Reports Unresolved ................................................................................................ 60

  5(a)(11) ....................................... Significant Revised Management Decisions ............................................................................. 60

  5(a)(12) ....................................... Significant Management Decisions with which OIG Disagreed .............................................. 60




4(A)(2): REVIEW OF LEGISLATION                                                                  SECTION 5(A)(3): PRIOR SIGNIFICANT
AND REGULATIONS                                                                                 RECOMMENDATIONS UNIMPLEMENTED

This section requires the inspector general of each agency to re-                               This section requires identification of each significant recommen-
view existing and proposed legislation and regulations relating to                              dation described in previous semiannual reports for which correc-
that agency’s programs and operations. Based on this review, the                                tive action has not been completed. Section 5(b) requires that the
inspector general is required to make recommendations in the semi-                              Secretary transmit to Congress statistical tables showing the num-
annual report concerning the impact of such legislation or regula-                              ber and value of audit reports for which no final action has been
tions on the economy and efficiency of the management of pro-                                   taken, plus an explanation of the reasons why recommended ac-
grams and operations administered or financed by the agency or                                  tion has not occurred, except when the management decision was
on the prevention and detection of fraud and abuse in those pro-                                made within the preceding year.
grams and operations. Comments concerning legislative and regu-
latory initiatives affecting Commerce programs are discussed, as                                To include a list of all significant unimplemented recommenda-
appropriate, in relevant sections of the report.                                                tions in this report would be duplicative, costly, unwieldy, and of




September 2004/Semiannual Report to Congress                                                                                                                                        59
Office of Inspector General




limited value to Congress. Any list would have meaning only if it    SECTION 5(A)(11): SIGNIFICANT REVISED
explained whether adequate progress is being made to implement       MANAGEMENT DECISIONS
each agreed-upon corrective action. Management updates the
Department’s Audit Tracking System annually, most recently as        This section requires an explanation of the reasons for any sig-
of July 2004. Information on the status of any audit recommenda-     nificant revision to a management decision made during the re-
tions can be obtained through OIG’s Office of Audits.                porting period. Department Administrative Order 213-5, Audit
                                                                     Resolution and Follow-up, provides procedures for revising a
SECTIONS 5(A)(5) AND 6(B)(2):                                        management decision. For performance audits, OIG must be con-
INFORMATION OR ASSISTANCE REFUSED                                    sulted and must approve in advance any modification to an audit
                                                                     action plan. For financial assistance audits, OIG must concur with
These sections require a summary of each report to the Secretary     any decision that would change the audit resolution proposal in
when access, information, or assistance has been unreasonably        response to an appeal by the recipient. The decisions issued on
refused or not provided. There were no instances during this semi-   the eight appeals of audit-related debts were finalized with the
annual period and no reports to the Secretary.                       full participation and concurrence of OIG.

SECTION 5(A)(10): PRIOR AUDIT REPORTS                                SECTION 5(A)(12): SIGNIFICANT
UNRESOLVED                                                           MANAGEMENT DECISIONS WITH WHICH
                                                                     OIG DISAGREED
This section requires a summary of each audit report issued be-
fore the beginning of the reporting period for which no manage-      This section requires information concerning any significant man-
ment decision has been made by the end of the reporting period       agement decision with which the inspector general disagrees. De-
(including the date and title of each such report), an explanation   partment Administrative Order 213-5 provides procedures for el-
of why a decision has not been made, and a statement concerning      evating unresolved audit recommendations to higher levels of
the desired timetable for delivering a decision on each such re-     Department and OIG management, including their consideration
port. There were two NIST reports more than 6 months old.            by an Audit Resolution Council. During this period no audit is-
                                                                     sues were referred to the council.




60                                                                              U.S. Department of Commerce/Office of Inspector General
ACRONYMS

AMQA ......................................................................................................................................... assistant manager for quality assurance

ATP .......................................................................................................................................................... Advanced Technology Program

BIS .......................................................................................................................................................... Bureau of Industry and Security

C&A ........................................................................................................................................................... certification and accreditation

CIO ..................................................................................................................................................................... chief information officer

CIRC .............................................................................................................................................. computer incident response capability

CIRT ...................................................................................................................................................... computer incident response team

CPA .................................................................................................................................................................. certified public accountant

CS .............................................................................................................................................................................. Commercial Service

EDA ............................................................................................................................................ Economic Development Administration

EPA ....................................................................................................................................................... Environmental Protection Agency

ESA .............................................................................................................................................. Economics & Statistics Administration

FedCIRC .............................................................................................................................. Federal Computer Incident Response Center

FFMIA ......................................................................................................................... Federal Financial Management Improvement Act

FISCAM ............................................................................................................................ Federal Information System Controls Manual

FISMA ............................................................................................................................. Federal Information Security Management Act

FMFIA ..................................................................................................................................... Federal Managers’ Financial Integrity Act

FOAM ........................................................................................................................................................ first office action on the merits

GPS .................................................................................................................................................................... global positioning system

GPRA ..................................................................................................................................... Government Performance and Results Act

HHC ............................................................................................................................................................................. handheld computer

HRM .......................................................................................................................................................... human resources management

IG .................................................................................................................................................................................... inspector general

IT .......................................................................................................................................................................... information technology




September 2004/Semiannual Report to Congress                                                                                                                                                     61
Acronyms




ITA ...................................................................................................................................................... International Trade Administration

LCO .............................................................................................................................................................................. local census office

MEP .................................................................................................................................................... Manufacturing Extension Program

NDAA ............................................................................................................................................... National Defense Authorization Act

NEXRAD ................................................................................................................................................ Next Generation Weather Radar

NIST ............................................................................................................................... National Institute of Standards and Technology

NMFS .................................................................................................................................................. National Marine Fisheries Service

NOAA ........................................................................................................................ National Oceanic and Atmospheric Administration

NRFU .................................................................................................................................................................... nonresponse follow-up

NTIA ....................................................................................................... National Telecommunications and Information Administration

NWS .................................................................................................................................................................. National Weather Service

OIG ................................................................................................................................................................. Office of Inspector General

OMB ................................................................................................................................................... Office of Management and Budget

OCS ................................................................................................................................................................ Operations Control System

PAR ................................................................................................................................................ Performance & Accountability Report

POA&M ....................................................................................................................................................... plan of action and milestones

QAR .................................................................................................................................................................. quality assessment review

QCR ......................................................................................................................................................................... quality control review

RLF ............................................................................................................................................................................. revolving loan fund

SCO ................................................................................................................................................................... senior commercial officer

USEAC ......................................................................................................................................................... U.S. export assistance center

USDA ...................................................................................................................................................... U.S. Department of Agriculture

US&FCS .......................................................................................................................................... U.S. & Foreign Commercial Service

USPTO .................................................................................................................................. United States Patent and Trademark Office




62                                                                                                                    U.S. Department of Commerce/Office of Inspector General
TYPES OF OIG WORK PRODUCTS


The various kinds of audits, evaluations, inspections, and investi-   management’s discussion and analysis presentations; and
gations at our disposal enable the IG’s office to assess Commerce     allowability and reasonableness of final grant and contract costs.
programs and operations from a range of perspectives. Thus we
are able to provide program managers with reviews and recom-
mendations that are either narrowly focused or comprehensive, as
needed, to aid them in ensuring the most efficient and effective      INSPECTIONS
use of taxpayer dollars.
                                                                      Inspections are reviews of an activity, unit, or office, or a con-
                                                                      tractor or other nonfederal entity that receives funds from the
                                                                      Department. They focus on an organization, not a whole program,
AUDITS                                                                and are often designed to give agency managers timely and useful
                                                                      information about operations, including current and foreseeable
Performance Audits address the efficiency, effectiveness, and         problems.
economy of the Department’s programs, activities, and informa-
tion technology systems. They may check a unit’s compliance with
laws and regulations, and evaluate its success in achieving pro-
gram objectives. They may also involve reviewing the                  EVALUATIONS
Department’s financial assistance awards by assessing an award
recipient’s compliance with laws, regulations, and award terms;       Program Evaluations are in-depth reviews of specific manage-
allowance of costs; and the degree to which projects achieved in-     ment issues, policies, or programs.
tended results.
                                                                      Systems Evaluations review system development, acquisitions,
Financial Audits determine whether (1) a reporting entity’s finan-    operations, and policy, focusing on computer systems and other
cial statements are presented fairly and in accordance with gener-    technologies.
ally accepted accounting principles; (2) the entity has an internal
control structure that provides reasonable assurance of achieving
the control objectives set forth by OMB; and (3) the entity com-
plied with laws and regulations that could have a direct and mate-    INVESTIGATIONS
rial effect on the financial statements, the Federal Financial Man-
agement Improvement Act, and other laws and regulations.              Investigations are conducted based on alleged or suspected wrong-
                                                                      doing by Department employees, contractors, recipients of finan-
Attestation Engagements involve examining, reviewing, or per-         cial assistance, and others responsible for handling federal re-
forming agreed-upon procedures on a subject matter or an asser-       sources. Investigations that expose violations of Department rules
tion about a subject matter and reporting the results. Attestation    and regulations or acts of fraud committed against the U.S. gov-
engagements can have a broad range of financial or nonfinancial       ernment can result in administrative sanctions and/or criminal or
focuses, such as an entity’s compliance with laws and regulations;    civil prosecution.




September 2004/Semiannual Report to Congress                                                                                      63
